NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



             MATERIAL LOSS REVIEW
                      OF
            NORLARCO CREDIT UNION


                         Report #OIG-09-01
                           May 11, 2009




                         William A. DeSarno
                         Inspector General


    Released by:                              Auditor-in-Charge:




    James Hagen                               R. William Bruns
    Asst IG for Audits                        Senior Auditor
                                         CONTENTS

Section                                                           Page

   I      EXECUTIVE SUMMARY                                         1

  II      BACKGROUND                                                3

  III     OBJECTIVES, SCOPE AND METHODOLOGY                         6

  IV      RESULTS IN DETAIL                                         7

               A. Why Norlarco Credit Union Failed                  7

               B. Colorado State Supervisory Authority and NCUA    23
                  Supervision of Norlarco Credit Union

               C. Observations and Lessons Learned                 29

  APPENDICES

  A            Examination History                                 32

  B            NCUA Management Comments                            70
EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General
(OIG) conducted a Material Loss Review of Norlarco Credit Union (Norlarco).
We reviewed Norlarco to (1) determine the cause(s) of Norlarco‟s failure and the
resulting loss to the National Credit Union Share Insurance Fund (NCUSIF), and
(2) assess NCUA‟s supervision of the credit union. To achieve these objectives,
we analyzed NCUA and Colorado State Supervisory Authority (SSA) examination
and supervision reports and related correspondence; interviewed management
and staff from NCUA Region V and the Colorado SSA; and reviewed NCUA and
SSA guides, policies and procedures, NCUA Call Reports, and NCUA Financial
Performance Reports (FPRs).

We determined that Norlarco management‟s actions created credit, liquidity
compliance, and strategic risks which directly contributed to the credit union‟s
failure. Specifically, the Board of Directors (Board) and management ignored
sound risk management principles by committing a significant portion of the
credit union‟s assets to a risky Residential Construction Lending (RCL) program
without adequate controls in place to oversee the program‟s daily operations.

Significant factors in Norlarco‟s failure were management‟s inability to adequately
identify, manage, and mitigate the risks within its RCL program. Specifically,
management‟s poor strategic decisions over its lending practices, as well as the
inability to find adequate funding sources to meet commitments, created risks
that Norlarco management did not, or could not, effectively manage. In addition,
the risks and issues plaguing Norlarco were interrelated and inseparable.
Eventually, management‟s inability to effectively manage the risks its own actions
had created, led to Norlarco‟s failure.

Colorado SSA and NCUA examiners determined, and the OIG agrees, that
Norlarco management failed to perform due diligence and establish appropriate
controls over the RCL program. Specifically, Norlarco management:

       Failed to conduct a due diligence review of its relationship with its third-
        party vendor, First American Funding, LLC1 (First American);

       Failed to adequately oversee the RCL program;

       Created a concentration risk by committing to fund $30 million per month
        in construction loans;

       Failed to develop an adequate Asset-Liability Management (ALM) policy;
        and

1
 The owner of First American Funding, LLC also owns First American, Inc. For purposes of this report, we
will refer to both companies as First American.


                                                    1
          Failed to develop adequate policies and a strategic plan to guide the credit
           union and the RCL program.

In addition, we determined Norlarco management took undue advantage of its
field of membership to grow the RCL program.

We also determined Colorado SSA and NCUA examiners did not adequately
evaluate the safety and soundness of Norlarco‟s loan participation program. As
a result, we believe SSA and NCUA examiners missed an opportunity to slow the
RCL program‟s growth, which might have mitigated the loss to the NCUSIF.

Auditor Observations made as a result of our review of Norlarco‟s failure
included:

          Examiners did not view the participation program and the participation
           agreements as safety and soundness concerns fraught with risk.

          Examiners did not associate the rapid rise of loans sold through
           participations as a potential safety and soundness concern to Norlarco, or
           to the NCUSIF, but rather examiners merely viewed participations as a
           means to manage Norlarco‟s balance sheet risk.

We also reviewed industry observations regarding the failures of financial
institutions, as well as recent NCUA observations regarding credit union failures.
We believe the industry‟s and NCUA‟s observations apply directly to issues we
observed during our review. Our comparative analysis can be found in Section
C. of this report.

NCUA management previously established guidance to credit union
management and examiners to address the issues that led to Norlarco‟s failure,
such as third-party lending, liability management, balance sheet risk
management, etc. However, based on this review, it was clear Norlarco
management failed to follow this guidance. Since NCUA officials declared
Norlarco insolvent,2 NCUA has provided additional guidance to credit union
management and examiners to address deficiencies in the area of participation
lending. Therefore, we are making no formal recommendations to NCUA
management at this time.

We appreciate the courtesies and cooperation NCUA and Colorado SSA
management and staff provided to us during this review.




2
    NCUA officials determined Norlarco was insolvent as of November 30, 2008.


                                                     2
Background

Norlarco Credit Union

Norlarco, located in Fort Collins, Colorado, was originally chartered as a Federal
credit union in 1959 to serve employees of Colorado State University and local
school district employees. In 1979, Norlarco converted to a state charter and its
field of membership included the residents of Larimer and western Weld counties
in north-central Colorado. On November 10, 2005, Kodak Colorado Division
Credit Union located in Windsor, Colorado merged into Norlarco.

On May 15, 2007, the Commissioner of the Colorado Division of Financial
Services (DFS), a State Supervisory Authority, placed Norlarco into
conservatorship and appointed the NCUA as conservator. The NCUA Board
approved the Federal conservatorship of Norlarco on July 26, 2007. At the time
of conservatorship, Norlarco was a full service, federally insured state credit
union (FISCU) servicing over 42,000 members through its more than 180 select
employee groups and six branches. Norlarco was located in NCUA‟s Region V.

In November 2007, the NCUA accepted bids from credit unions interested in
acquiring Norlarco. In January 2008, the NCUA selected the bid of Public
Service Credit Union (PSCU), a FISCU located in Denver, Colorado.

On February 29, 2008, the NCUA Board placed Norlarco into involuntarily
liquidation under section 207(b)(3) of the Credit Union Act3 and appointed itself
as liquidating agent. Also on this date, the NCUA, as liquidating agent, executed
a purchase and assumption (P&A) agreement and transferred the assets,
liabilities, and shares of Norlarco to PSCU, for a premium of $21.6 million.
Norlarco‟s assets at the time were approximately $275 million. The P&A by
PSCU resulted in a loss to the NCUSIF of approximately $10.0 million; however,
the final cost to the NCUSIF will not be known until all assets are sold.

NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes: collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and
developing action plans. The objectives of the total analysis process include
evaluating CAMEL4 components, and reviewing qualitative and quantitative
measures.



3
 12 U.S.C. §1787(b)(3(A)
4
 The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and Asset/[L]iability Management


                                                  3
NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union's financial condition and operations. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends.
Generally, the examiner uses the key ratios to evaluate and appraise the credit
union‟s overall financial condition. During an examination, examiners assign a
CAMEL rating, which completes the examination process.

Examiner judgment affects the overall analytical process. An examiner‟s review
of data includes structural analysis,5 trend analysis,6 reasonableness analysis,7
variable data analysis,8 and qualitative data analysis.9 Numerous ratios
measuring a variety of credit union functions provide the basis for analysis.
Examiners must understand these ratios both individually and as a group
because some individual ratios may not provide an accurate picture without a
review of the related trends. Financial indicators such as adverse trends,
unusual growth patterns, or concentration activities can serve as triggers of
changing risk and possible causes for future problems. NCUA also instructs
examiners to look behind the numbers to determine the significance of the
supporting ratios and trends. Furthermore, NCUA requires examiners to
determine whether material negative trends exist; ascertain the action needed to
reverse unfavorable trends; and formulate, with credit union management,
recommendations and plans to ensure implementation of these actions.

Risk-Focused Examination Program

In May 2002, NCUA announced its new Risk-Focused Examination (RFE)
Program, for implementation in the fall of 2002. Risk-focused supervision
procedures often include both off-site and on-site work that includes reviewing
off-site monitoring tools and risk evaluation reports. The RFE process includes
reviewing seven categories of risk: Credit, Interest Rate, Liquidity, Transaction,
Compliance, Strategic, and Reputation. Examination planning tasks may include
(a) reviewing the prior examination report to identify the credit union‟s highest risk
areas and areas that require examiner follow-up; and (b) analyzing Call Report
and FPR trends. The extent of supervision plans depends largely on the severity
and direction of the risks detected in the credit union‟s operation and on
management‟s demonstrated ability to manage those risks. A credit union‟s risk


5
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
6
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
7
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
8
  Examiners can often analyze an examination area in many different ways. NCUA‟s total analysis process
enables examiners to look beyond the "static" balance sheet figures to assess the financial condition, quality
of service, and risk potential.
9
  Qualitative data includes information and conditions that are not measurable in dollars and cents,
percentages, numbers, etc., which have an important bearing on the credit union's current condition, and its
future. Qualitative data analysis may include assessing lending policies and practices, internal controls,
attitude and ability of the officials, risk measurement tools, risk management, and economic conditions.


                                                      4
profile may change between examinations. Therefore, the supervision process
encourages the examiner to identify those changes in profile through:

        Review of Call Reports,

        Communication with credit union staff,

        Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the 12-Month Program.10 NCUA
indicated these changes were necessary due to adverse economic conditions
and distress in the nation‟s entire financial structure, which placed credit unions
at greater risk of loss. The NCUA stated that the 12-Month Program will provide
more timely relevant qualitative and quantitative data to recognize any sudden
turn in a credit union's performance.

Supervision of FISCUs

NCUA‟s statutory authority and its guidelines indicate the agency has the legal
and fiduciary responsibility to ensure the safety of the NCUSIF. FISCUs receive
the same account insurance coverage under the NCUSIF as federally chartered
credit unions. Therefore, FISCUs are subject to the same review of risks as
other credit unions. The two most common types of onsite FISCU reviews are an
independent insurance review and a joint examination/insurance review. During
both reviews, NCUA limits its scope to risk issues negatively affecting the
NCUSIF. However, during an independent insurance review, NCUA examiners
limit their role to the review and analysis of risks to the NCUSIF only, rather than
to complete an examination of the FISCU. In joint examinations/insurance
reviews, both NCUA and the SSA examiners focus on risk issues, while the state
examiner also focuses on regulatory concerns.

NCUA examiners primarily monitor the financial condition and progress of
FISCUs by reviewing SSA examination reports, Call Reports (5300 Reports), and
FPRs. In reviewing SSA reports, NCUA‟s concerns include whether:

        The SSA examiners adequately addressed material risks within the
         FISCUs;

        The credit union understands the seriousness of the risks; and

        An agreement or plan exists for resolving unacceptable risks in a timely
         manner.


10
   The 12-month program requires either an examination or a material on-site supervision contact within a 10
to 14 month timeframe based on risk-based scheduling eligibility.


                                                     5
The Federal Credit Union Act (FCU Act) requires that, because SSAs are
primarily responsible for the supervision of insured state credit unions, NCUA
should use the SSA examination reports to the maximum extent feasible.11
However, NCUA reserves the right to conduct an insurance review of any FISCU
as it deems necessary to determine its condition for insurance purposes.12

Objective, Scope and Methodology

The FCU Act requires the NCUA Office of Inspector General to conduct a
material loss review if the loss to the NCUSIF exceeds $10 million.13 NCUA
notified the OIG of a loss reserve for Norlarco of $12 million. Consequently, in
accordance with the FCU Act and Chapter 3 of the NCUA Special Assistance
Manual, we initiated a material loss review.

The objectives of our review were to (1) determine the cause(s) of Norlarco‟s
failure and the resulting loss to the NCUSIF, and (2) assess NCUA‟s supervision
of the credit union. To accomplish our review, we conducted fieldwork at
NCUA‟s headquarters in Alexandria, VA, and its regional office in Tempe, AZ.

To determine the cause of Norlarco‟s failure and assess the adequacy of NCUA‟s
supervision we:

        Analyzed NCUA and Colorado SSA examination and supervision reports
         and related correspondence;

        Interviewed management and staff from NCUA Region V and the
         Colorado SSA; and

        Reviewed NCUA and state policies and procedures, NCUA Call Reports
         (5300 Reports), and NCUA FPRs.

Our review covered the period from August 1998 to February 2008, Norlarco‟s
liquidation date. We conducted our fieldwork from November 2008 through May
2009. We conducted our review in accordance with generally accepted
government auditing standards.




11
   The FCU Act, 12 U.S.C., Chapter 14, § 1781(b)(1).
12
   The FCU Act, 12 U.S.C., Chapter 14, § 1784(a).
13
   The FCU Act, 12 U.S.C. § 1790d, §216(j) requires that the OIG conduct a review when the NCUSIF has
incurred a material loss with respect to a credit union. A material loss is defined as (1) exceeding the sum of
$10 million and (2) an amount equal to 10 percent of the total assets of the credit union at the time at which
the Board initiated assistance or was appointed liquidating agent.



                                                      6
RESULTS IN DETAIL

We determined Norlarco management‟s actions contributed directly to the credit
union‟s failure. In addition, we determined NCUA examiners may have been
able to mitigate the loss to the NCUSIF had they fully recognized Norlarco‟s loan
participation program represented a potential safety and soundness concern.

A. Why Norlarco Credit Union Failed

     Management’s             We determined Norlarco management‟s actions
     Actions Led to           created credit,14 liquidity,15 compliance,16 and
     Norlarco’s Failure       strategic risks17 which directly contributed to the
                              credit union‟s failure. Specifically, Norlarco‟s Board
                              and management ignored sound risk management
principles by committing a significant portion of the credit union‟s assets to a risky
residential construction lending program without adequate controls in place to
oversee the program‟s daily operations.

Significant factors in Norlarco‟s failure were management‟s inability to adequately
identify, manage, and mitigate the risks within its RCL program. Specifically,
management‟s poor strategic decisions over its lending practices, as well as the
inability to find adequate funding sources to meet commitments, created risks
that Norlarco management did not, or could not, effectively manage. In addition,
the risks and issues plaguing Norlarco were interrelated and inseparable.
Eventually, management‟s inability to effectively manage the risks their own
actions had created, led to Norlarco‟s failure. Although some may view the
downturn in the real estate market18 as the cause of Norlarco‟s failure,
management‟s actions clearly left the credit union overexposed to unfavorable
economic conditions.

Colorado SSA and NCUA examiners determined, and the OIG agrees, that
Norlarco management failed to perform due diligence and establish appropriate
controls over the RCL program. Specifically, Norlarco management:

14
   Credit Risk is the current and prospective risk to earnings or capital arising from an obligor‟s failure to
meet terms of any contract with the credit union or otherwise fail to perform as agreed. Credit risk exists in
all activities where the credit union invests or loans funds with the expectation of repayment.
15
   Liquidity Risk is the current and prospective risk to earnings or capital arising from a credit union‟s inability
to meet its obligations when they come due, without incurring material costs or unacceptable losses.
Liquidity risk includes the inability to manage funding sources.
16
   Compliance Risk includes the current and prospective risk to earnings or capital arising from violations of,
or nonconformance with rules, regulations, prescribed practices, internal policies and procedures, or
ethical standards.
17
   Strategic Risk is the current and prospective risk to earnings or capital arising from adverse business
decisions, improper implementation of decisions, or lack of responsiveness to industry changes.
18
   A Business Week article published in April 2005 indicated that extremely cheap mortgage rates had fueled
a record-setting level of home sales since 2001. Demand had caused home prices to jump at rates not seen
since the 1980s. Another article published in Barron‟s in August 2006 indicated the housing market boom
appeared to have ended abruptly for many parts of the U.S. in late summer of 2005, and as of summer
2006, several markets were facing increasing inventories, falling prices, and sharply reduced sales volumes.


                                                         7
        Failed to conduct a due diligence review of its relationship with its third-
         party vendor, First American;

        Failed to adequately oversee the RCL program;

        Created a concentration risk by committing to fund $30 million per month
         in construction loans;

        Failed to develop an adequate Asset-Liability Management19 (ALM) policy;
         and

        Failed to develop adequate policies and a strategic plan to guide the credit
         union and the RCL program.

In addition, we determined Norlarco management took undue advantage of its
field of membership to grow the RCL program.

Summary of Norlarco‟s CAMEL Ratings History and RCL Program

From 1993 through 2002, Norlarco consistently received composite code 1 or 2
CAMEL ratings based on a business plan that concentrated on routine financial
services.

In late 2001, the Board approved the creation of the RCL program. The RCL
program allowed Norlarco to finance and service construction loans through a
third-party broker/servicer, First American. First American is a Colorado-based
company that originates, closes, services and administers residential home
construction loans. In addition, First American obtains permanent financing for
borrowers upon maturity of the construction loans.

In August 2003, Norlarco management entered into a Funding and Services
Agreement with First American to fund $30 million per month in construction
loans under the RCL program. NCUA examiners indicated Norlarco
management expanded the RCL program because of flat loan demand in auto
financing and home equity lines of credit. Norlarco management indicated they
wanted to allow for improved yield and earnings. Examiners indicated the RCL
program had shown excellent yield and profitability levels. Examiners also
indicated the program had generated a million dollar profit with no losses. The
Funding and Services Agreement included:

        A requirement that First American would obtain permanent financing for
         the borrower upon the maturity of the construction loan.

19
  ALM is the process of evaluating balance sheet risk (interest rate and liquidity risk) and making prudent
decisions, which enables a credit union to remain financially viable as economic conditions change.


                                                      8
        A guarantee by First American to buy back all residential construction
         loans from Norlarco if First American or the borrower was not able to
         obtain permanent financing.20

        A guarantee by First American to make any interest payments on
         construction loans that were more than 45-days past due.

In December 2003, First American entered into a construction loan agreement
with Palm Harbor Homes, Inc. (Palm Harbor), a builder of manufactured homes.
Initially, First American worked with Palm Harbor to fund construction loans
through Norlarco and 55 other construction lenders for properties located in
Texas. The agreement guaranteed Palm Harbor would buy back all construction
loans from First American for which borrowers did not obtain permanent
financing.

In October 2004, First American and Norlarco shifted the focus of the RCL
program to fund construction loans for properties located primarily in Lee County
Florida. Also, in October 2004, First American entered into a construction loan
agreement with First Home Builders of Florida (FHBF). The agreement included
a guarantee by FHBF to First American (and Norlarco) that FHBF would pay all
debts and liabilities owed by buyers pursuant to construction loans until
permanent financing satisfied the construction loans.

From 2003 to 2007, Norlarco‟s Composite CAMEL rating slowly eroded from a
code 2 in March 2003 to a code 4 at its last joint examination conducted in April
2007. In November 2007, NCUA determined Norlarco‟s Probable Asset/Share
(PAS)21 ratio was 99.19 percent, and concluded that the eroded Florida real
estate market would further drop Norlarco‟s PAS to approximately 90 percent.
Ultimately, NCUA concluded Norlarco was insolvent22 due to the potential losses
resulting from the Florida RCL program. Appendix A provides details regarding
the examination history of Norlarco and the CAMEL ratings.

Summary of Management‟s Actions

The following summarizes Norlarco management‟s actions contributing to the
credit union‟s failure:



20
   First American would purchase the construction loan no later than 7-months following the original maturity
date of the construction loan.
21
   NCUA defines the Probable Asset/Share ratio as the relative worth of each one dollar in shares using an
ongoing concern concept.
22
   A credit union is determined to be insolvent when the total amount of shares exceeds the present cash
value of its assets after providing for liabilities unless: (a) it is determined by the NCUA Board that the facts
that caused the deficient share-asset ratio no longer exist; (b) the likelihood of further depreciation of the
share-asset ratio is not probable; (c) the return of the share-asset ratio to its normal limits within a
reasonable time for the credit union concerned is probable; and (d) the probability of a further potential loss
to the insurance fund is negligible.


                                                       9
Norlarco management failed to conduct a due diligence review of its
relationship with its third-party vendor, First American

An NCUA examiner determined Norlarco management failed to perform a due
diligence review before entering into a third-party relationship with First
American. More significantly, we found no evidence Norlarco management ever
assessed First American‟s financial ability to fulfill its buyback commitment to
Norlarco on defaulted construction loans. We believe this was a crucial oversight
considering the magnitude of Norlarco‟s $30 million per month commitment to
fund construction loans underwritten by First American.

NCUA guidelines indicate credit union officials should require a due diligence
review prior to entering into any arrangement with a third-party. This should
include a review of the company‟s financial statements to determine the strength
of the institution. The guidelines indicate a weakly capitalized third-party vendor
could lead to potential losses.

We learned that as of December 2003, First American‟s assets totaled
approximately $5.8 million, which included approximately one hundred thousand
in cash. We also learned First American worked with 55 other financial
institutions to fund construction loans. Although we were unable to determine
whether First American had entered into similar Funding and Service
Agreements with any of the other 55 financial institutions, even one additional
agreement with similar guarantees could have created a significant financial
burden on First American‟s assets.

First American‟s questionable financial means to fulfill its buyback guarantee was
highlighted when examiners learned, during the September 30, 2005
examination, that Norlarco management provided First American a $2.5 million
line of credit, which First American used to buy back loans that were past due or
were in the process of litigation or foreclosure. We believe that if Norlarco
management had conducted a third-party due diligence review before entering its
relationship with First American, management may have questioned First
American‟s financial standing, considering the terms of the agreement.

After the Colorado SSA placed Norlarco in federal conservatorship in May 2007,
NCUA officials concluded First American did not have the financial capability to
guarantee payment on the RCL program loans, which at the time were over $230
million.

Norlarco management failed to adequately oversee the RCL program

Colorado SSA and NCUA examiners determined Norlarco management had
allowed First American complete control in making and overseeing Norlarco‟s
construction loans in the RCL program. Specifically, First American provided the
entire servicing function for Norlarco, which included conducting the underwriting



                                        10
of the borrower, qualifying the borrower as a potential member of Norlarco,
arranging for the contractor to build the home, conducting the inspections,
forwarding to Norlarco draw requests and interest payments based on its own
inspections and schedule, qualifying the borrower for take-out financing, and
forwarding extensions of matured loans and interest payments on those loans to
Norlarco.

NCUA guidelines indicate that inadequately managed and controlled third-party
relationships can result in unanticipated costs, legal disputes, and financial loss.
NCUA has issued guidance to remind credit union officials that, when working
with third-parties, credit union officials are still responsible for planning, directing,
and controlling the credit union‟s affairs.

Norlarco management‟s lack of oversight of the RCL program resulted in:

      Overreliance on guarantees in the RCL program,

      Underreported delinquencies in the RCL portfolio,

      Misclassification of loans in the RCL program, and

      Declining borrower credit quality.

Overreliance on Guarantees in the RCL Program

We determined Norlarco management relied on guarantees that either were not
financially sound or did not exist. NCUA officials indicated Norlarco management
had a multitude of contracts and agreements associated with the RCL program,
but had not conducted a legal review of these documents. As a result, NCUA
officials indicated Norlarco management did not have a sufficient grasp of its
contractual rights and responsibilities.

Norlarco management indicated the RCL program‟s purported multi-tier
guarantee structure minimized the credit risk to Norlarco. Specifically, Norlarco
management indicated:

      The first tier was traditional real estate security provided by Norlarco which
       held the first deed of trust on each loan.

      The second tier was contingent upon First American‟s financial ability to
       meet its contractual obligations. This included a guarantee by FHBF to
       First American (and Norlarco) that FHBF would pay all debts and liabilities
       owed by buyers pursuant to construction loans until permanent financing
       satisfied the construction loans.




                                           11
We determined the foundation of the second tier was tenuous. As previously
discussed, NCUA officials stated, and we agree, that First American did not have
the financial capability to fulfill its guarantee to Norlarco. Furthermore, the
guarantee Norlarco management believed First American had with FHBF may
not have existed after June 2005 because First American and FHBF had
removed the guarantee from the original agreement. The following is the
chronology associated with First American‟s Construction Loan Agreement with
FHBF:

        In October 2004, First American entered into a Construction Loan
         Agreement with FHBF. The agreement indicated First American was a
         servicing and loan disbursement company for Construction Lenders.23
         The intent of the agreement was that neither FHBF nor First American (or
         the Construction Lenders) would realize a loss on a construction loan as
         the result of a breach, default or failure by a buyer. The agreement
         included a guarantee to First American and the Construction Lenders that
         FHBF would pay all debts and liabilities owed by a buyer until the
         permanent financing satisfied the construction loan.

        On June 7, 2005, FHBF and First American modified their original
         agreement to (1) remove the guarantee, and (2) indicate that the
         construction loans were the obligations of the borrowers and were not
         guaranteed obligations of FHBF.

        On July 28, 2005, Hovnanian Enterprises, Inc. (Hovnanian, Inc.) contacted
         First American due to its pending purchase of FHBF‟s assets.24
         Hovnanian, Inc. requested First American provide them confirmation of
         First American‟s lending relationship with FHBF.

        On August 1, 2005, First American formally confirmed to K. Hovnanian
         First Homes, LLC25 (KHov) that there were no written, verbal, direct or
         indirect agreements that required a guaranteed buyback of mortgage
         loans by FHBF.

        On August 2, 2005, First American formally communicated to KHov that it
         understood KHov would not provide any form of financial guarantees on
         the loans.

NCUA officials indicated there was no evidence Norlarco management had
approved and waived their vested interest as a beneficiary to the agreement.
NCUA officials also indicated, and we agree, it was not clear whether Norlarco
23
   The Construction Lenders were a network of licensed construction mortgage lenders (including Norlarco)
who were third-party beneficiaries of the agreement, having the same rights and remedies as First
American.
24
   Hovnanian Enterprises, Inc., designs, constructs and markets a variety of for-sale housing in 284
residential communities in 18 states.
25
   K. Hovnanian First Homes, LLC is a wholly-owned subsidiary of Hovnanian Enterprises.


                                                   12
management knew about the elimination of this guarantee because, subsequent
to the modification:

      Norlarco management had represented the existence of the guarantee to
       several participants.

      Norlarco‟s Chief Executive Officer (CEO) indicated the builder‟s guarantee
       justified Norlarco management‟s risk in participating in the RCL program.
       The CEO indicated the burden of defaults and delinquencies would have
       fallen first on the builders, secondly on First American, and lastly on
       Norlarco.

NCUA officials indicated Norlarco management should have had independent
legal counsel review the agreements related to the RCL program to ensure
management understood each party‟s rights and responsibilities under the terms
of the agreements prior to meeting with the RCL program‟s new builder in 2007.
We agree with NCUA officials‟ assessment. In addition, we believe Norlarco
management should have conducted independent legal reviews before each of
the agreements and revisions were executed, starting with the initial Funding and
Services Agreement entered into with First American in August 2003.

Underreported Delinquencies in the RCL Portfolio

NCUA officials determined Norlarco management permitted First American to
comprehensively and unilaterally extend residential construction loans in the RCL
program. Norlarco officials admitted First American extended these loans to
maintain the borrowers‟ interest payments and avoid delinquency reporting. We
also believe First American extended the loans to avoid having to fulfill its
buyback guarantee.

NCUA guidelines indicate credit unions should not use extension agreements to
cover up delinquency problems. First American‟s extensions of Norlarco-funded
construction loans ultimately led to Norlarco underreporting its delinquencies to
NCUA. For example, from June 2006 through December 2006, Norlarco‟s
overall delinquency ratio was reported at less than one percent. NCUA and SSA
examiners determined extensions in the RCL program were approximately 48
percent as of July 31, 2006. When NCUA and SSA examiners required the
credit union to cease all extensions on properties with Certificates of Occupancy,
Norlarco‟s reported delinquencies increased from 2.14 percent as of March 2007
to over 20 percent in June 2007.

By November 2007, NCUA officials determined that 87 percent of the RCL
program loans had been extended once, 51 percent had been extended twice,
and six percent had been extended three times. In addition, NCUA officials




                                        13
determined that 97 percent of the RCL program loans were more than 180 days
delinquent and Norlarco‟s overall delinquency ratio was over 25 percent.26

Examiners stated the integrity of financial reporting and disclosure to the
Colorado DFS and NCUA was compromised due to the extensions. Therefore, it
was impossible for NCUA and SSA examiners to gain an accurate assessment of
Norlarco‟s delinquencies. As a result, examiners did not have accurate
information, during examinations and offsite monitoring, to determine the
potential losses in Norlarco‟s RCL program.

Misclassified Loans in the RCL portfolio

NCUA officials determined Norlarco management‟s internal controls over the
RCL program were so lax that the Board and management failed to recognize
the vast majority of the loans in the RCL portfolio were for investment purposes.
NCUA officials determined the borrower‟s intent was often misrepresented on the
loan applications underwritten by First American. In fact, NCUA officials
indicated some borrowers owned multiple properties - some on the same street,
which were not being reported as member business loans (MBLs). As a result,
NCUA officials required Norlarco management to reclassify every RCL portfolio
loan as a MBL until each borrower could be contacted to verify the intent of their
loan.

NCUA‟s statutory limit on MBLs requires a credit union‟s aggregate net MBL
balance to be the lesser of 1.75 times its net worth or 12.25 percent of its total
assets. As of December 2006, Norlarco presented its MBL balance at
approximately $39 million, 1.15 times Norlarco‟s net worth and 10.9 percent of its
total assets, which was within NCUA‟s statutory limits. After Norlarco
management reclassified the loans, Norlarco‟s MBL balance as of March 2007
was $86.7 million, nearly three times Norlarco‟s $30.5 million net worth, and the
ratio of MBLs to assets ($353.8 million) was more than 24 percent. Based on the
statutory limits, Norlarco‟s MBL balance should not have exceeded
approximately $43 million.27

As a result of Norlarco‟s ongoing misclassification of its RCL portfolio loans,
NCUA and SSA examiners did not have accurate information to properly
supervise the credit union.

Declining Borrower Credit Quality28

NCUA and SSA examiners determined, and we agree, the credit quality of
borrowers declined steeply as the RCL program progressed. During an

26
   The peer delinquency ratio was 1.01 percent as of December 31, 2007.
27
   Forty-three million dollars represents 12.25 percent of Norlarco‟s assets of $353.8.
28
   The borrowers‟ credit quality refers to a borrower‟s capacity to repay a loan as represented by their credit
score and proof of income.


                                                      14
examination completed in April 2007, NCUA and SSA examiners reviewed 350
credit scores from a sample of 360 RCL program loans and determined (1)
borrowers‟ credit scores declined29 and (2) proof of income to support the
borrowers‟ ability to repay the construction loans became more limited as the
RCL program progressed. In addition, we reviewed the credit scores of 1,240
borrowers of Florida RCL program loans financed by Norlarco valued at more
than $308 million and also determined the credit quality of borrowers declined
between 2005 and 2006.30 As a result of this declining credit quality, Norlarco
was exposed to higher credit risk.

Credit scores provide the best guide to future risk when only considering credit
report data.31 The higher the credit score a borrower has, the lower the risk for
the lender.32 Table 1 illustrates the system we used to group the borrowers‟
credit scores:

                               Group              Credit Score Range
                               1                  720 and over

                               2                  700-719

                               3                  680-699

                               433                660-679

                               5                  640-659

                               6                  620-639

                               7                  600-619

                               8                  Below 600

                             Table 1: Credit Score Rating Categories

Based on our review of the borrowers‟ credit scores, we determined the number
of borrowers with credit scores below 680 increased from approximately 30
percent in 2005 to more than 41 percent in 2006. Although borrowers with credit
scores between 680 and 699 increased just slightly over one percent from 2005
and 2006, borrowers with credit scores from 700 and above declined from
approximately 56 percent to 43 percent. Chart A (below) summarizes the credit
scores of the 1,240 borrowers we reviewed:

29
   The median credit score of all loans examiners reviewed was 687. However, the median credit score for
the 153 loans reviewed that were granted in 2006 was 665, and the credit scores on 36 percent of the loans
reviewed that were granted in 2006 were less than 639.
30
   In 2005, 651 of the loans were financed for approximately $157 million. From January 1, 2006 through
August 21, 2006, 589 of the loans were financed for approximately $151 million.
31
   According to MyFICO.com, a division of Fair Isaac Corporation (FICO).
32
   Credit scores can range between a low score of 300 and a high of 850. There is no single cutoff score
used by all lenders.
33
   A borrower with a credit score in this group would be considered as having “Ok” credit.


                                                   15
                                    Credit Scores for RCL Program Borrowers
                                                 (Florida Loans)


     60.00%

     40.00%                                                                                         2005
                                                                                                    2006
     20.00%

         0.00%

                 Less than 680                                                            2006
                                      680 - 699
                                                              700 Plus             2005



                 Chart A: Summary of Borrower Credit Scores Reviewed by OIG

In addition, of the sample of 350 RCL program loans NCUA and SSA examiners
reviewed, examiners indicated the majority of RCL program borrowers stated the
intent of the construction loans was for first and second residences. However,
not only did the examiners indicate the characteristics of the loans34 did not
support this intent, but they also indicated that borrowers‟ credit scores did not
support a second residence.

Furthermore, the examiners determined that of the 350 loans they reviewed,
proof of income to support the borrowers‟ ability to repay the loans became more
limited as the RCL program progressed. Specifically, the examiners determined:

         Approximately 14 percent (47) of the loans included limited documentation
          to support the borrower‟s capacity to repay;

         55 percent (193) of the loans were “stated-income” loans where borrowers
          are not required to provide documentation to support the income included
          on the application; and

         31 percent (109) of the loans, approved during the latter portion of the
          RCL program,35 were No Income No Asset (NINA) loans, which do not
          require the borrower to disclose income or provide bank statements. 36



34
   Examiners indicated that without income verification or stated income on many of the loans, it was
impossible to adequately determine if the borrowers had the capacity for a primary or secondary residence.
35
   From the end of 2005 through the end of the RCL program
36
   Generally, NINA loans represent a higher risk to the lender, requiring a higher credit score.


                                                    16
The examiners determined the NINA loans would have represented
approximately $23 million (31 percent) of the $73 million in Norlarco RCL
wholly/partially owned loans as of February 20, 2007. In addition, the NINA
loans would have represented 68 percent of Norlarco‟s December 31, 2006 net
worth of $33.6 million, which created significant credit and concentration risks.
Although “stated income” and NINA loans have been an accepted practice for
qualifying borrowers, we believe the results of the loan review, which determined
86 percent of the loans required no supporting documentation for borrowers‟
income, clearly demonstrate that Norlarco management‟s actions created
significant credit and concentration risks in its RCL portfolio.

Norlarco management created a concentration risk by committing to fund
$30 million per month in construction loans

We determined Norlarco management‟s $30 million monthly commitment
resulted in an excessive concentration of the credit union‟s assets in a residential
construction lending program operated by a single third-party servicer. However,
NCUA officials indicated that First American and Norlarco did not have the
expertise necessary to handle a mortgage broker/servicing arrangement with
such a high monthly loan volume. In addition, Norlarco management also
concentrated a significant portion of the credit union‟s assets in one geographic
location - Lee County, Florida.

Concentration in a Single Residential Construction Lending Program

Examiners indicated Norlarco management‟s policy37 was to limit the loans in the
RCL portfolio to five percent of total assets, with an additional two percent
allowance for participations.38 However, we determined that as a result of its
monthly commitment,39 Norlarco‟s RCL portfolio increased to more than 35
percent of its total assets as of September 200540 - from just over $13 million in
Norlarco-owned commitments as of February 2003 to more than $123 million in
outstanding loans as of September 2005. In addition, Norlarco‟s unfunded
commitments for residential property loans increased from $47 million as of
March 200341 to $165 million as of September 2005. The value of Norlarco‟s
outstanding RCL program loans and unfunded commitments - $288 million - was
more than 83 percent of Norlarco‟s total assets.

Examiners indicated that initially, Norlarco management used non-member
deposits and borrowings to fund the $30 million monthly loan commitment.
37
   Examiners determined this was Norlarco‟s policy as of March 2003.
38
   Federal credit unions may participate with others in loans to credit union members, subject to the
provisions of NCUA Rules and Regulations. Loan participation represents another potential source of
liquidity for credit unions. Typically, participation involves an agreement between two or more credit unions
or other types of financial institutions, and includes a pool of loans.
39
   Norlarco management entered into the $30 million per month agreement with First American in August
2003.
40
   The value of Norlarco‟s total assets as of September 30, 2005 was $347,612,542.
41
   At the time, this data was referred to as „Unused Commitments‟.


                                                     17
Examiners also indicated that when Norlarco reached its borrowing limits,
management began selling construction loan participations. From August 2003
to August 2006,42 Norlarco had funded and sold participations and whole loans to
18 financial institutions. However, examiners indicated during the September
2005 examination that the rate of participations had decreased significantly, with
no agreements in place for other institutions to purchase a sufficient number of
loans to restore Norlarco to a balanced level of liquidity. The lack of funding
sources resulted in Norlarco‟s increasingly leveraged and illiquid position.

Geographic Concentration in Lee County, Florida

Examiners determined that 97 percent of the properties Norlarco management
funded under the RCL program were located in Florida. Specifically, the
properties were located in Lee County in the cities, towns or neighborhoods of
Alva, Cape Coral, Fort Myers and LeHigh Acres, where a report indicated, based
on market conditions,43 home values in 2005 may have been overvalued by 35
percent.44 NCUA officials indicated the homes built during Florida‟s rapid price
appreciation through early 2005, enticed a number of borrowers to purchase
homes to be constructed. In April 2008, a National Public Radio article about Lee
County, Florida real estate indicated that, although just a few years ago there
was a rush to buy property in Lee County, Florida, there was now a glut of unsold
homes in the county. The article also indicated that, as of February 2008, the
county had the highest foreclosure rate in the nation. We believe that when the
Lee County Florida real estate market collapsed, Norlarco was unable to absorb
the losses from the significant concentration of properties on which buyers did
not fulfill their loan obligations.

Auditor‟s Note: Examiners noted that as of the September 30, 2005 examination
completed on November 30, 2005, Norlarco‟s RCL portfolio was 41 percent of its
total loans. Interestingly, Norlarco‟s Financial Planning Committee approved a
measure to increase the RCL program loan limit from five percent of assets to 40
percent of total loans on November 2, 2005.

Norlarco management failed to develop an adequate ALM policy

NCUA officials determined Norlarco management did not have an adequate ALM
program in place to monitor its liquidity position. Consequently, NCUA officials
determined Norlarco management was unable to forecast the potential liquidity


42
   As a result of the June 2006 examination, the Commissioner, Colorado Division of Financial Services,
examiners required Norlarco to cease funding new loans with First American or any wholesale loan program
until certain requirements were met, thereby prohibiting the credit union from making any additional loans
through the RCL program.
43
   Market conditions are based on historic price data, area income, mortgage rates, and population density.
44
   An article in the August 31, 2005 edition of the Credit Union Times -Economist says Home Prices Have
Risen to “Extremely Overvalued” Levels in 53 Cities - indicated 53 cities were “at high risk of price declines.
One of the cities was Cape Coral, FL where the author indicated home prices may have been overvalued by
35 percent.


                                                      18
problems that would occur due to significant loan growth generated by the RCL
program.

NCUA guidelines indicate that credit union boards have responsibility for
overseeing the ALM process. As a result of the joint SSA and NCUA
examination conducted in November 2005,45 NCUA and SSA examiners
determined the Board‟s liquidity management policies were not commensurate
with the complexity of its funding sources. The examiners determined Norlarco
management: (1) extensively used non-member deposits, overnight corporate
borrowing, and term borrowings from the Federal Home Loan Bank; and (2)
pursued loan participation sales to fund the $30 million per month in loan
commitments for the RCL program in Florida. However, NCUA and SSA
examiners indicated they could not find any policy that required reporting asset
sales, borrowing activity, or use of non-member deposits. In fact, the examiners
indicated Norlarco‟s ALM reporting was not sufficient, and the Board and the
Asset Liability Committee were not discussing liquidity management. The
examiners considered this an unsafe and unsound practice; therefore, they rated
Norlarco‟s liquidity risk as “high”.

Norlarco management failed to develop adequate policies and a strategic
plan to guide the credit union and the RCL program

Colorado SSA and NCUA examiners determined that approximately two years
after Norlarco management entered into the $30 million per month Funding and
Services Agreement with First American,46 and approximately 11 months after
Norlarco began funding RCL program loans in Florida,47 Norlarco management‟s
policies and strategic plan were not adequate to guide the RCL program.

Specifically, examiners indicated:

        Norlarco management did not have sufficient and adequate guidance at
         the policy level to outline operating goals, targets, ranges, concentrations,
         and limits, or measurements of progress toward those goals and targets.

        The Board‟s policy did not include guidance or direction regarding
         participation in the RCL program other than to allow the purchase of third-
         party loans subject to portfolio limits set by the Financial Planning
         Committee.48



45
   This was approximately 13 months after Norlarco began funding its RCL program in Florida in October
2004.
46
   Norlarco entered into the Agreement with First American in August 2003.
47
   Examiners indicated Norlarco began funding RCL program loans in October 2004.
48
   The only quantitative mention of the RCL program was in a December 2004 presentation to the Financial
Planning Committee, which indicated Norlarco management‟s plan was to aggressively maintain the
program and sell off loans as needed to keep [Norlarco‟s] aggregate total at „around $65 million‟.


                                                   19
      There was no policy that set parameters to limit risk or that required
       management to report asset sales, borrowing activity, or use of non-
       member deposits to help fund the $30 million per month loan commitment
       for the RCL program.

      Norlarco‟s Strategic Plan for 2005 did not address the RCL program in
       terms of concentration by percentage, return on investment for purchases,
       pool sales, or participations.

Examiners determined, and we agree, that as a result of Norlarco management‟s
failure to develop policies and parameters to manage risk in pursuing loan
growth, as well as the lack of an adequate strategic plan, Norlarco had escalating
levels of liquidity, strategic, and credit risk that required corrective action and
monitoring.

Norlarco management took undue advantage of its field of membership

We believe Norlarco management took undue advantage of its field of
membership in order to not only help Norlarco fulfill its $30 million per month
funding commitment, but also to financially benefit from what economists believe
was the largest real estate boom in U.S. history. As a result, management
concentrated a significant portion of its loan portfolio in a distant and unfamiliar
geographic location. In addition, the RCL program in Florida grew in a rapid and
uncontrolled manner and created significant credit and concentration risks.

Colorado DFS provisions allow credit unions to serve fields of membership with a
common bond of employment or association or groups residing within a well-
defined geographic area. Norlarco used the following Colorado-based
associational groups to qualify the Florida RCL program borrowers for Norlarco‟s
field of membership.

      Rocky Mountain Bird Observatory, which addresses bird conservation in
       the western United States.

      Boys & Girls Clubs of Larimer County, which provides activities for
       children in three locales in Larimer County Colorado.

      Legacy Land Trust, which protects resources in northern Colorado.

Due to limitations in available data, we were not able to fully determine the
geographic location of all RCL program borrowers. However, examiners
sampled the Florida RCL loans and determined over 43 percent of the borrowers
resided in the Miami-Dade County area of Florida. We learned Norlarco
management sent letters to the borrowers/new members that included a
statement indicating Norlarco would close their accounts at the completion of
their construction loans. We believe this statement clearly indicated Norlarco


                                         20
qualified the borrowers for membership to help Norlarco fulfill its $30 million per
month commitment and take advantage of the ongoing real estate boom. In fact,
NCUA and SSA examiners determined that borrowers in the RCL program did
not represent opportunities for cross-selling credit union services because the
borrowers would not have a relationship with Norlarco beyond the duration of the
construction loan. In addition:

      A Colorado DFS official indicated SSA staff were surprised when they
       learned where the RCL program borrowers were located, and

      An NCUA official indicated Norlarco staff obviously took advantage of its
       field of membership.

Furthermore, another NCUA official stated, and we agree, Norlarco management
made a mistake by establishing a significant loan business in a geographically
distant location. The official added that this decision required Norlarco
management to rely solely on third-party vendors for information about the local
Florida real estate market and the status and progress of the RCL properties.

The RCL program loans increased 293 percent between December 2004 and
December 2005. Ultimately, by the end of June 2006, the overall Florida RCL
portfolio totaled over $330 million.

Auditor Observations: NCUA management previously established guidance to
credit union management and examiners addressing the issues that led to
Norlarco‟s failure. In addition, since declaring Norlarco insolvent, NCUA has
provided additional guidance to credit union management and examiners to
address deficiencies in the area of participations. The following are Letters to
Credit Unions and Risk Alerts issued to FISCUs between 1991 and 2008 that
provide guidance on due diligence over real estate lending, outsourced lending,
and loan participations:

Year    Reference                 Title
1991    Letter No. 124            Real Estate Secured by Credit Union Members
1995    Letter No. 174            Risk-Based Loans
1999    Letter No. 99-CU-05       Risk-Based Lending
2001    Letter No. 01-CU-20       Due Diligence Over Third Party Service Providers
2003    Letter No. 03-CU-11       Non-Maturity Shares and Balance Sheet Risk
        Letter No. 03-CU-15       Real Estate Concentrations and Interest Rate Risk
                                  Management for Credit Unions with Large Positions in
                                  Fixed-Rate Mortgage Portfolios
        Letter No. 03-CU-17       Independent Appraisal Evaluation Functions for Real-
                                  Estate Transactions
2004    Letter No. 04-CU-13       Specialized Lending Activities
        Risk Alert No. 05-Risk-   Specialized Lending Activities – Third Party Subprime
2005    01                        Indirect Lending and Participations
        Letter No. 05-CU-07       Managing Risks Associated with Home Equity


                                          21
                               Lending
2007   Letter No. 07-CU-13     Evaluating Third-Party Relationships
2008   Letter No. 08-CU-09     Evaluating Third-Party Relationships Questionnaire
       Letter No. 08-CU-26     Evaluating Loan Participation Programs

Furthermore, NCUA issued a series of Letters to Credit Unions between 1999
and 2008, providing guidance on balance sheet risk management and asset-
liability management:

Year   Reference               Title
1999   Letter No. 99-CU-12     Real Estate and Balance Sheet Risk Management
2000   Letter No. 00-CU-10     Asset Liability Management Examination Procedures
2000   Letter No. 00-CU-13     Liquidity and Balance Sheet Risk Management
                               Liability Management – Highly Rate-Sensitive &
2001   Letter No. 01-CU-08     Volatile Funding Sources
                               Supervisory Letter – Evaluating Current Risks to Credit
2008   Letter No. 08-CU-20     Unions

We believe NCUA has provided credit unions with sufficient guidance on (1) due
diligence over third parties providing lending activities, (2) balance sheet risk
management, asset liability management, and liquidity management, and (3)
loan participation programs. Therefore, we are not making any
recommendations to NCUA management regarding these issues.




                                        22
B. Colorado State Supervisory Authority and NCUA Supervision of
  Norlarco Credit Union

                                     We determined Colorado SSA and NCUA examiners
     Examiners May
                                     did not adequately evaluate Norlarco‟s loan
     Have Been Able to
                                     participation program. As a result, we believe
     Mitigate the Loss to
                                     examiners missed an opportunity to slow the RCL
     the NCUSIF
                                     program‟s growth, which might have mitigated the
                                     loss to the NCUSIF.

Starting in 2002, SSA and NCUA examiners took actions to work with Norlarco
management to get control of its RCL program.49 However, SSA and NCUA
examiners did not fully recognize Norlarco‟s loan participation program
represented a potential safety and soundness concern.

Colorado SSA and NCUA supervision efforts over Norlarco’s RCL program

The following are highlights of events and actions surrounding the SSA‟s and
NCUA‟s supervision of Norlarco‟s overall RCL program (Appendix A includes
specific details of the examination history):

December 2002           Joint Examination completed March 2003

      
                                                                                               50
          Examiners noted Norlarco had established a new construction loan program.
         Examiners included in the Document of Resolution (DOR), requirements for Norlarco
          management to:
           o Develop and adopt written construction loan policies and procedures.
           o Revise liquidity polices to a level commensurate with the size and complexity of
               the credit union.
           o On an ongoing basis, determine and make appropriate adjustments to tighten
               underwriting standards.

June 2004               Joint Examination completed October 2004

Examiners determined Norlarco‟s partial compliance with the revision of its liquidity policy. The
examiners noted the policy was incomplete.

In October 2004, Norlarco began funding RCL program loans for properties
located primarily in Lee County, Florida.

August 2005             NCUA officials discovered Norlarco was funding loans for
                        Florida properties.




49
   As discussed in the Background section of this report, SSAs are primarily responsible for the supervision
of insured state credit unions. NCUA conducted examinations jointly with the SSA.
50
   We noted that at the time, this program was primarily in Texas. (Discussed in Section A of this report)


                                                     23
September 2005 Joint Examination completed November 2005

        NCUA and SSA examiners determined Norlarco had a serious liquidity issue and noted
         the underlying problem was Norlarco management‟s $30 million monthly funding
         commitment.
        NCUA management officials agreed to include specific language in the DOR to require
         Norlarco management to limit new construction loan commitments. However, the DOR
         the Colorado SSA issued allowed Norlarco management to consider one of three
                                                                                      51
         methods for calculating and limiting credit concentration and liquidity risk.
        The SSA and NCUA also included requirements in the DOR to address loan target
         limits and concentration risk. In addition, the examiners required Norlarco
         management to provide monthly reports to the SSA that included liquidity and cash flow
         information.

Subsequent to the September 2005 examination, NCUA and the SSA completed
several frequent joint contacts during 2006.

March 2006             Joint Contact completed May 2006

NCUA and SSA examiners noted:
        Norlarco management had taken several steps to try to improve the monitoring and risk
         assessment of the First American portfolio.
        Norlarco‟s liquidity levels had improved substantially.
        There was a substantial reduction in the level of Norlarco‟s borrowed funds.

June 2006              Joint Contact completed August 2006

As a result of this contact, the examiners required Norlarco management and the Board to:
        Cease funding of new loans with First American or any wholesale program until
         Norlarco fulfilled certain requirements.
        Provide to the SSA and NCUA a report on the status of the First American portfolio and
         the status of completion of all DOR items.
The examiners also indicated that despite the cooperation NCUA had received from Norlarco, it
was likely that NCUA would not wait for further reporting to place Norlarco in Special Actions.

August 2006            Norlarco was placed in NCUA Special Actions with the first
                       contact conducted in November 2006.




51
  SSA officials informed us they made the change on the advice of their counsel because there was not
sufficient evidence to support the restrictive DOR language NCUA wanted in the DOR.


                                                   24
Colorado SSA and NCUA Examiners did not fully recognize Norlarco’s loan
participation program represented a potential safety and soundness
concern

We determined SSA and NCUA examiners did not adequately evaluate
Norlarco‟s loan participation program to determine whether safety and
soundness concerns existed. Specifically, we found no evidence examiners
conducted a thorough review of Norlarco‟s participation program to document the
adequacy of Norlarco‟s risk analysis, strategic planning, or due diligence.52 As a
result, examiners did not identify the potential liability, or risks the loan
participation program represented to Norlarco, or ultimately, to the NCUSIF.

Under the risk-focused examination approach, NCUA guidance:

        Encourages examiners to focus on activities of increased or higher risk
         and to determine that credit unions are completing proper due diligence
         reviews prior to engaging in new or expanded activities; and

        Indicates examiners should ensure that credit unions continue to monitor
         higher risk activities on an on-going basis.

In addition, NCUA guidance indicates:

        Loan participations expose a credit union to a full range of risks including
         credit, interest rate, liquidity, transaction, compliance, strategic, and
         reputation.53

        Credit unions buying and selling loan participations must fully understand
         the terms of the loan participation agreement and underlying loan
         transaction(s) and be able to explain them to all interested parties,
         including regulators.

We determined Norlarco began its loan participation program during the first
quarter of 2002. In a joint examination conducted with the Colorado SSA in
March 2003,54 examiners documented that Norlarco was participating First
American construction loans to other financial institutions. The examiners noted
Norlarco‟s external auditors raised concerns55 regarding the participation
program. The external auditors indicated the participation agreement did not
clarify the notion that (1) Norlarco would not have to purchase back the
participation loans at any given time; and (2) the participations could be
considered a potential liability rather than an asset. However, there is no
52
   Risk assessment, strategic planning, and due diligence assure that officials are fully informed about the
program and provide the opportunity to design and implement procedures and controls to mitigate the risks.
53
   The degree of risk varies depending on factors such as whether the credit union is the seller or buyer, the
sale is with or without recourse, and the complexity of the individual loans.
54
   Effective date was December 31, 2002.
55
   Examiners noted this concern in a workpaper that was not part of the official examination report.


                                                     25
indication the examiners raised the external auditors‟ concerns to Norlarco
management, or to NCUA or SSA management, much less as a potential safety
and soundness concern. The only official discussion we found of Norlarco‟s
participation program was in the NCUA examiner‟s memorandum to their
supervisory examiner and in the examination Contact Report, which indicated
Norlarco had begun a participation program. Neither the Scope Workbook nor
the Examiner Findings document addressed the loan participation program.

During the September 2005 joint examination, examiners reviewed the RCL
program loan participation agreements and determined Norlarco‟s standard
participation agreement was without recourse or guarantee on the part of
Norlarco. Examiners also determined:

         The Senior Vice President of Operations seemed to be the only one who
          knew anything about participation loan sales.

         It was a serious control deficiency for a $347 million dollar credit union to
          have only one individual knowledgeable about this critical function.

         The loan participation sales process should have been monitored and
          overseen by the same committee that managed liquidity or interest rate
          risk.

However, we found no evidence in this or other examinations or contacts that
examiners evaluated the safety and soundness of Norlarco‟s overall participation
program. In fact, in the September 2005 DOR, examiners included a
requirement for the Board and management to consider obtaining additional
written agreements with participation partners to purchase loans in an amount
sufficient to restore Norlarco‟s liquidity level to those established in its business
plans.

NCUA officials stated during Norlarco‟s conservatorship period that the $30
million per month agreement entered into in August 2003 between Norlarco and
First American ensured Norlarco would experience liquidity problems. To help
fulfill this monthly commitment and try to maintain adequate liquidity, Norlarco
management had sold construction loan participations in addition to funding
non-member loans and borrowing funds. From August 2003 to August 2006,
Norlarco pooled together and sold participations and whole construction loans to
18 financial institutions. NCUA officials determined that at its peak, the balance
of RCL program loans Norlarco sold to participating financial institutions was
nearly $250 million.56

We reviewed the loan participation agreements and learned that while the
agreements were without recourse, the recourse clause included language that
the seller (Norlarco) was obligated to repurchase a loan only if the participant(s)
56
     As of December 2006.


                                            26
could prove there was a material misrepresentation of fact within 12 months from
the date of purchase.

One participant alleged Norlarco materially misrepresented the loans it
purchased. The participant indicated Norlarco allegedly:

      Emphasized a guarantee by the builder effective October 2004 to buy
       back construction loans under certain conditions. However, the participant
       alleged that it was not made aware until February 2007 that this guarantee
       was removed from the builder‟s agreement, effective June 2005.

      Sold a pool of participation loans held out by Norlarco as “Owner-
       Occupied” when in fact approximately 40 percent of the loans were later
       determined to be held for investment purposes.

The participant demanded Norlarco repurchase over $12 million in participated
loans.

We found no evidence that examiners verified whether Norlarco management
had obtained legal guidance as to the recourse provisions of the participation
agreements/circulars, and explicit and implied representations and warranties
made by Norlarco to investors of RCL program loans in Florida. It was not until
April 2007 that NCUA officials required Norlarco to obtain legal reviews of its
contracts. As a result, we believe Norlarco management was not fully aware of
the impact of all the terms and conditions of the participation agreements until
much too late. We also believe that had examiners first addressed the safety
and soundness concerns through a risk-focused examination, when the program
was first identified by external auditors, Norlarco management would have been
better informed about the agreement‟s clauses and warranties when working with
potential buyers of loan participations.

The external auditors‟ determination regarding the potential liability of the loan
participations was foretelling. NCUA officials told the OIG that in their opinion,
had examiners viewed Norlarco‟s participation program as a potential safety and
soundness concern, the loss to the NCUSIF may have been mitigated.

Auditor Observations: Examiners did not view the participation program and
the participation agreements as safety and soundness concerns fraught with risk.
Specifically, Norlarco entered into a participation program too quickly without
conducting proper due diligence and slowly gaining the necessary experience
over time to effectively operate such a program. In addition, examiners did not
associate the rapid rise of loans sold through participations as a potential safety
and soundness concern to Norlarco, or to the NCUSIF, but rather examiners
merely viewed participations as a means to manage Norlarco‟s balance sheet
risk.




                                        27
Lesson Learned: NCUA officials advised the OIG that the inadequacies we
found in NCUA‟s supervision efforts related to participations were more systemic
in nature due to not having a formal program in place to review participations,
versus inadequacies of the individual examiners who supervised Norlarco.
Accordingly, in November 2008, NCUA issued a supervisory letter (08-CU-26) to
NCUA field staff indicating that loan participation credit and concentration risks
were increasing more rapidly than credit unions‟ overall loan portfolio risk. The
letter included guidance and a questionnaire for examiners to use in evaluating
loan participation programs.

In addition, NCUA issued Letter to Credit Unions, No. 08-CU-26 titled: Evaluating
Loan Participation Programs, advising credit union management that despite the
benefits of loan participation programs, there are potential risks. NCUA indicated
that credit unions should perform a comprehensive risk assessment before
beginning loan participation activities, and that due diligence is a key factor in
assuring risks are identified and mitigated.

Because NCUA management provided additional guidance to credit union
management and examiners to address deficiencies in the area of participation
lending, we are making no formal recommendations to NCUA management at
this time.




                                        28
C. OBSERVATIONS AND LESSONS LEARNED

This section addresses observations and lessons learned regarding credit union
operations and management actions.

     Credit Union           We reviewed industry57 observations regarding the
     Operations and         failures of financial institutions. We also reviewed
     Management Actions     recent NCUA observations regarding credit union
                            failures. We believe the industry‟s and NCUA‟s
observations apply to issues we observed during our review of Norlarco‟s failure.

The following table lists the industry observations regarding failed financial
institutions and how they compare to our observations about Norlarco‟s failure:

         Industry Observations                        NCUA OIG Observations of
           of Failed Financial                           Norlarco’s Failure
               Institutions

        Failed institutions often       Norlarco‟s net worth ratio was 9.49 percent at its last
        exhibit warning signs when      examination in April 2007 (12/31/06 Effective Date)
        they appear financially         when examiners indicated Norlarco needed to “take
        strong.                         hold” of the RCL program because it was negatively
                                        impacting all areas of risk – Credit, Interest Rate,
        The financial condition of      Liquidity, Transaction, Compliance, Management,
        the institution is no           and Reputation, contributing to a downgrade of the
        guarantee of future             CAMEL rating to an overall 4.
        performance.
                                        Based on NCUA guidance, Norlarco had been well
                                        capitalized since at least December 2002.

        Managers of failed              Norlarco management‟s decision to shift their
        institutions frequently         business model to construction loan financing,
        assume more risk than           particularly with a third-party vendor with whom
        they are able to handle.        complete control was given to run the construction
                                        loan financing program, resulted in a significant
                                        amount of credit union assets involved in a risky,
                                        speculative real estate venture with little or no
                                        controls in place to oversee daily operations.

        An inattentive or passive       The Norlarco Board delegated authority to First
        Board is a precursor to         American to originate, underwrite, approve, and
        problems.                       perform all servicing and collection functions for the
                                        RCL program.




57
  We reviewed a 2004 report issued by the FDIC OIG - Observations from FDIC OIG Material Loss Reviews
Conducted 1993 through 2004 (Report No. 04-004, January 22, 2004) - that summarized observations from
material loss reviews of 10 failed FDIC-supervised institutions.


                                                29
           The Institution may reach a       At the conclusion of the April 2007 examination
           point at which problems           (Effective date 12/31/2006), the Colorado DFS
           become intractable and            determined Norlarco management‟s serious errors
           supervisory actions are of        and omissions in their management of the
           limited value.                    outsourced third-party lending arrangement, and
                                             failure to discharge their duty to provide effective
                                             oversight of the credit union, warranted issuance of a
                                             Cease and Desist Order. On April 18, 2007,
                                             Norlarco management was served with a Cease and
                                             Desist Order due to engaging in unsafe and unsound
                                             business practices. The Colorado DFS placed
                                             Norlarco into state conservatorship on May 15, 2007
                                             and appointed the NCUA Board as conservator. The
                                             NCUA Board approved the Federal conservatorship
                                             of Norlarco on July 26, 2007.


Industry officials observed other issues regarding failed financial institutions
similar to those we observed during our review of the Norlarco failure. They
observed:

           The institutions‟ management58 took risks that were not mitigated by
            systems to adequately identify, measure, monitor, and control the risks.

           Economic conditions contributed to, but were not the sole cause of, the
            failure and the resulting material loss.

Although, we believe the economic decline of the Florida real estate market
contributed to Norlarco‟s failure, management‟s risk taking and decision to
involve the credit union in the Florida construction loan program without
adequate controls in place were the main causes of Norlarco‟s failure.

We also reviewed recent observations by NCUA regarding credit union failures.
NCUA indicated that overly aggressive management activity is a reason credit
unions fail. This observation is consistent with the industry‟s observation that
management often assumes more risk than it can handle. The following table
compares the overly aggressive management activities NCUA identified at
Norlarco with our observations in the course of this review:




58
     Management includes the Boards of Directors and executive officers.


                                                     30
         NCUA Observations                           NCUA OIG Observations of Norlarco

      Liberal lending policies.           A loan review determined 86 percent of the RCL
                                          program loans required no supporting
                                          documentation for borrowers‟ income.

      Excessive loan growth
      compared with abilities or          Norlarco management used non-member deposits and
      funding sources.                    borrowings to fund the $30 million monthly loan
                                          commitment. Examiners also indicated that when
      Inadequate liquid                   Norlarco reached its borrowing limits, management
      assets/secondary source             began selling construction loan participations.
      of liquidity.

      Undue reliance on                   Norlarco borrowed funds from a Federal Home Loan
      volatile liabilities.59             Bank.

      Collateral based                    Norlarco had a high concentration of loans secured by
      lending/loan                        real estate in Florida.
      concentration.60


Furthermore, the financial industry and NCUA identified four stages of an
institution‟s failure:

        I – Strategy
        II – Growth
        III – Deterioration
        IV – Failing

Finally, we believe a significant industry observation is that one of the more
difficult challenges facing regulators is limiting risk assumed by institutions even
though their capital ratios make them appear financially strong. A critical
component in limiting an institution‟s risk is early corrective action by regulators in
response to examinations that identify potential problems and effects on the
institution‟s condition.




59
   Volatile liabilities generally include funding from institutions/brokers. These tend to be interest rate
sensitive and are funds that are likely to be withdrawn at a moment‟s notice.
60
   A collateral loan is a loan obtained from a financial institution where, in exchange for the loan, the creditor
may sell the collateral if the loan is unpaid. A collateral loan is often offered at a lower interest rate than an
unsecured loan, because there is a guarantee of repayment should the borrower default on the loan.


                                                       31
Appendix A: Examination History

This appendix provides a summary of the Colorado SSA and NCUA joint
examinations and onsite contacts through the April 2007 contact during which the
Colorado Division of Financial Services (DFS) placed Norlarco under
conservatorship. Since at least 1993, the Colorado SSA rated Norlarco a
CAMEL 1 or 2. NCUA did not conduct an onsite supervision of Norlarco until
March 2003 (effective date December 31, 2002). The Colorado SSA and NCUA
examiners downgraded Norlarco to a 3 as of the June 2004 examination
because of high loan losses and charge-offs in their indirect auto lending
program. NCUA and the SSA further downgraded Norlarco to a 4 as of the
December 2006 joint examination because Norlarco management was not in
control of the Residential Construction Lending (RCL) program.

Table 2 below provides a summary of the Colorado SSA‟s and NCUA‟s
examinations and contacts of Norlarco effective between December 2002 and
March 2007. The table also identifies Norlarco‟s key ratios as of the effective
dates of the examinations and onsite contacts.




                                        32
                                                Table 2: Examinations, Contacts and Key Ratios
Exam or Contact Date            12/31/02      6/30/04     3/31/05       9/30/05        3/31/06       6/30/06        9/30/06      12/31/06          3/31/07
Work Classification
                                    11           11          23            11             23            23             23          11/23                 23
Code61
CAMEL                                2           3            3             3              3             3             3              3                  4

Net Worth                        9.28%        8.86%        8.67%         8.03%         8.42%          8.74%         9.33%          9.49%            8.63%

Delinquency                      1.89%        2.41%        1.06%         1.19%          .76%           .96%          .95%           .83%            2.14%
Net Charge-Offs*                  .28%        2.07%          1.26        1.27%          .77%           .75%          .80%          1.21%            1.21%
ROAA62*                          1.36%         0%           .87%         1.24%          .55%           .74%          .81%           .75%           -3.40%
Operating Expense/Avg
                                 4.45%        3.84%        3.84%         3.65%         3.25%          3.26%         3.35%          3.38%            3.54%
Assets*
Borrowings / Ttl Shares
                                   0%           0%           0%          6.15%         4.24%          6.73%           0%             0%                  0%
& NW*
Asset Growth*                    13.49%       -2.80%       8.18%        25.51%         -5.19%        -4.55%         -8.06%        -6.12%                 .32
Loan Growth*
                                 8.28%         -15%       15.89%        46.39%         74.36%         38.3%         15.29%        11.69%            -6.69

  * Indicates Annualized Ratios




  61
     Work Classification Code “11” denotes a regular joint examination or insurance review of any FISCU. Work Classification Code “23” denotes on-site
  supervision of any FISCU.
  62
     Return On Average Assets.




                                                                                33
December 31, 2002

                   The Colorado SSA and NCUA completed a joint examination of
 Code 11 Joint
                   Norlarco in March 2003 using credit union data effective
 Examination
                   December 31, 2002. The regulatory agencies rated the Asset
                   Quality, Management and Asset/Liability Management CAMEL
components a 2. The overall composite rating was 2. The examiners conducted the
examination because of:

      The asset size of the credit union,

      Declining net worth,

      Increasing delinquency,

      Increasing loan growth, and

      Increasing real estate lending.

The areas the examiners reviewed included real estate/construction loans. The
examination resulted in a Credit Risk rating of Moderate; minor findings in the area
of collections and loan policies (particularly real estate/construction); and minor
underwriting concerns in the state‟s loan exception report regarding the real
estate/construction loans and other recent consumer loans.

Examiners noted Norlarco‟s net worth increased 20 basis points for 2002.
Examiners also noted that while Norlarco‟s operating expenses steadily increased
over the previous three years, the return on assets was a “healthy” 1.36 percent,
which contributed to the net worth growth. In addition, the examiners indicated
Norlarco management modified their lending and demonstrated a reduced loan
growth ratio of over 24 percent from the previous year to an 8.28 percent ratio.
Furthermore, examiners indicated Norlarco management began a participation
program with other credit unions through First American and Centennial Lending.

There was an informal workpaper in the AIRES download files that included the
following assessments regarding Norlarco‟s RCL program. However, these
assessments were not included in the Examiner Findings or the NCUA Region V
Memo:

       The workpaper indicated the Board had approved a new loan program
       approximately sometime in late 2001. The program allowed the credit union
       to finance modular home construction projects up to nine months through
       First American. Norlarco‟s policy limited this loan type to five percent of
       assets, but allowed an extra two percent for the creation of participation
       pools. Norlarco had in fact participated out a portion of the loans.


                                             34
The workpaper also indicated:

      Norlarco was performing due diligence at the front end of the loan to
       help mitigate credit risk.

      The earnings on this program for Norlarco and the participants had
       outweighed the potential losses.

While the workpaper noted Norlarco was performing certain underwriting
procedures, it also noted that Norlarco had not incorporated the following
procedures into the program in writing:

      Guidelines addressing loan extensions and the maximum a loan was
       allowed to extend, and under what circumstances, prior to taking
       possession of the property.

      Establishing a stop loss parameter. For example, if delinquency in
       relation to Total Loans outstanding became greater than a specific
       percentage, Norlarco management would halt this type of lending and
       revise underwriting procedures.

      Resolving problems with borrowers moving in to the residence prior to
       closing the construction loan.

      Guidelines providing strict third party requirements for experience and
       expertise to handle draws and inspections.

      Guidelines indicating First American followed underwriting parameters
       set by Norlarco FISCU.

      The guidelines should have noted the credit union only allowed a 90
       percent loan-to-value and maximum 55 percent debt ratio.

      Guidelines indicating Norlarco would have researched the location of
       the property in comparison to where the individual worked.

      Guidelines indicating Norlarco would not have financed “stick built”
       homes under the program.

Furthermore, the workpaper:

      Recommended monitoring the program in approximately nine months
       to review delinquency, ensure loans continued to turn over, etc.



                                   35
             Indicated there was an audit that questioned the participation
              agreement. The audit indicated the participation agreement did not
              clarify whether Norlarco would not have to buy back the participation
              loans at any given time. Thus, these participations could have been
              considered a potential liability rather than an asset.

             Indicated Norlarco needed to establish a written liquidity policy and
              guidelines.

 Document of         The Colorado SSA examiners required Norlarco management
 Resolution          and the Board to:


      Develop and adopt written construction loan policies and procedures by July
       31, 2003.

      Continue to develop and adopt written real estate loan foreclosure policies
       and procedures by July 31, 2003.

      Revise the liquidity polices to a level that was commensurate with the size
       and complexity of the credit union by July 31, 2003.

      On an ongoing basis, determine and, if necessary, make appropriate
       adjustments to tighten underwriting standards if current loan underwriting
       policies and procedures were too heavily weighted towards minimal approval
       time/member convenience, volume, and profitability at the expense of prudent
       credit and collateral risk analysis.


                      NCUA completed a code 26 review in May 2003. The
 Code 26
                     examiner noted a weak real estate construction policy. There
 Review of
                     was no AIRES download.
 Examination




June 30, 2004

                     The Colorado SSA and NCUA completed a joint examination of
 Code 11
                     Norlarco in October 2004 using credit union data effective June
 Joint
                     30, 2004. The regulatory agencies rated the Asset Quality
 Examination
                     component a 4, the Management component a 3, and the
                     Earnings component a 5. The overall composite rating was 3.
The examiners downgraded Norlarco because of high loan losses and charge-offs in
an indirect auto lending program.


                                          36
The examiners indicated profitability had been declining since December of 2002
when the Return on Average Assets (ROAA) ratio was 1.36 percent. As of June of
2004, this ratio had declined to break even. The Operating Expenses to Average
Assets ratio as of June 30 2004 was 4.84 percent, which was 108 basis points
above the peer average and had been steadily increasing since 2001. The
examiners also indicated Norlarco‟s delinquencies and charge offs were a major
area of concern:

Examiners believed an ongoing advisory was warranted because of significant
economic uncertainties created by high unemployment, a weakened economy, and
rising bankruptcy filings nationally and in Colorado. Examiners also advised
management to:

      Remain cautiously alert to the possibility of additional loan problems and
       ensure that the allowance for loan loss remained fully funded each month.

      Beware of taking on excessive credit risk and be prepared to adjust
       underwriting standards if necessary.

Furthermore, examiners determined Norlarco‟s liquidity policy was incomplete. The
policy did not clearly establish the purpose, objectives, and goals of liquidity
management. The examiners advised Norlarco management the policy should
have, among other things, addressed what courses of action would have been taken
in response to liquidity needs under normal business conditions, deteriorating
liquidity scenarios, and emergencies.


 Status of DOR Items from the December 31, 2002 Examination


      Develop and adopt written construction loan policies and procedures by July
       31, 2003.

       The examiners noted Norlarco’s compliance - the Board approved a
       construction loan policy.

      Continue to develop and adopt written real estate loan foreclosure policies
       and procedures by July 31, 2003.

       The examiners noted Norlarco’s compliance – Norlarco management
       indicated that procedures had been developed for real estate loan
       foreclosures.




                                         37
     Revise the liquidity polices to a level that was commensurate with the size
      and complexity of the credit union by July 31, 2003.

      The examiners noted partial compliance by Norlarco.

     On an ongoing basis, determine and, if necessary, make appropriate
      adjustments to tighten underwriting standards if loan underwriting policies and
      procedures were too heavily weighted towards minimal approval
      time/member convenience, volume, and profitability at the expense of prudent
      credit and collateral risk analysis.

      The examiners noted Norlarco’s compliance – Norlarco management had
      made some adjustments to underwriting standards, although they continued
      to be lenient as compared to the industry standards.



 Document of         The Colorado SSA examiners required Norlarco management
 Resolution          and the Board to:

                         Improve Profitability

Board of Directors       Establish a strategic goal to reduce the Operating Expense to
and Executive            Average Assets ratio so that earnings would have improved.
Management
December 31, 2004

                         Asset Quality

Board of Directors       Continue efforts to improve loan credit quality and underwriting
and Executive            decisions, thereby reducing the likelihood of loan charge offs and
Management               decreasing the need for loan loss expense. Efforts should have
Immediately              been concentrated in those areas that management had deemed
                         the primary areas of losses – unsecured loans and indirect auto
                         loans.


Board of Directors       Establish alternate plans to be implemented if CU Direct Connect
and Executive            did not implement the changes recommended by the panel made up
Management               of participating indirect lending credit unions.
By November 30,
2004




                                         38
Board of Directors      Review and make revisions to the procedures regarding the
and the VP of Lending   guaranteed credit files from First American. Essential
By December 31,         documentation for these files should have been easily found on the
2004                    CD/ROMs. A recommendation to correct this problem was to create
                        a spreadsheet documenting each loan and what date essential
                        documents were obtained in order to easily locate them.

Board of Directors      Formalize the “after funding checklist” process to include specific
and the VP of Lending   underwriting criteria, which loan types and what percentage of loans
By December 31,         funded would have been reviewed, and which loan officers would
2004                    have been required to complete the checklist.

                        Loan Policy

Board of Directors      Review and revise the loan policy to adequately reflect lending
and Executive           practices for unsecured loans.
Management
By December 31,
2004


Board of Directors      Include in the lending policies and procedures specific criteria that
and the VP of Lending   needed to be met without additional approval for refinances,
By November 30,         extensions, and workout loans. This would have provided
2004                    guidelines and some consistency for the loan officers.

                        Allowance for Loan and Lease Loss Policy

Board of Directors      Establish and approve a policy for the Allowance for Loan and
By December 31,         Lease Loss Account.
2004

                        Dual Controls

Executive               Implement an effective system of dual controls for all applicable
Management              branches to adequately safeguard cash and cash items and to help
Immediately             protect the employees from unfair or false accusations.

Board of Directors      Mail to the Colorado DFS the Board-approved 2005 Strategic
and Executive           Business plan and corresponding pro forma balance sheet and
Management              income statement budgets.
By February 15, 2005




                                        39
                    NCUA completed a code 26 review in December 2004. The
 Code 26
                    examiner noted: high operating expenses; high, but improving
 Review of
                    delinquencies; high charge-offs in indirect lending; and declining
 Examination
                    capital. There was no AIRES download.



March 31, 2005

 Code 23            The Colorado SSA and NCUA completed a three hour joint
 Joint Contact      onsite contact of Norlarco in July 2005 using credit union data
                    effective March 31, 2005. The examination addressed
                    delinquencies and loan quality identified during the June 2004
examination. The contact concluded delinquencies were high, but improving, and
charge-offs were high. The regulatory agencies rated the Capital and the Earnings
components a 2, and the Asset Quality and the Management components a 3. The
overall composite rating was 3.


September 30, 2005

 Code 11           The Colorado SSA and NCUA completed a joint examination of
 Joint             Norlarco in November 2005 using credit union data effective
 Examination       September 30, 2005. The regulatory agencies rated the Asset
                   Quality, Management, and Earnings components a 3 and the
                   Asset/Liability Management component a 4. The overall
composite rating was 3.

The examiners determined Norlarco management lacked policy, planning, and limit-
setting, oversight of the credit union, and failed to recognize problems and
deficiencies and to develop effective remedial plans to alleviate those problems
when identified by others.

In addition, the examiners indicated:

      Norlarco‟s reported ROAA of 1.24 percent was a “picture of profitable
       operation”. The strong ROAA was achieved in part by Norlarco
       management‟s aggressive and successful cutting of its operational costs,
       highlighted by its rapid asset growth in the first nine months of the year.

      The largest factor after the reduced operating expense was the lowered ratio
       of Provision for Loan Losses (PLL) as a percentage of Average Assets.
       Norlarco‟s PLL decreased for the first nine months of 2005 as a result of
       Norlarco‟s increased concentration of First American construction loans, for
       which management had not established an allowance for loss. The


                                          40
       Allowance for Loan Loss (ALL) decreased from 2004. However, if Norlarco
       management had established an appropriate ALL, Norlarco‟s PLL expense
       would have increased commensurately and earnings and ROAA would have
       decreased to well below one percent.

      Norlarco Credit Union‟s loans increased at an annual rate of 33.93 percent,
       and Total Real Estate Loans increased by 51.47 percent (annualized). The
       examiners indicated the increase in assets had been supported by a
       significant shift in Norlarco‟s liability structure. Norlarco‟s Regular Shares
       decreased by approximately $12 million, while non-member shares increased
       by approximately $13 million. The remaining growth was supported by $20
       million in borrowings, which resulted in a strongly leveraged position.

      Delinquent Loans as a percentage of outstanding loans, and Net Charge Offs
       in the prior twelve months as a percentage of average loans outstanding in
       the nine month period of the current year showed an improvement since the
       end of 2004. However, the examiners indicated they and Norlarco‟s internal
       auditors raised questions regarding the reporting of delinquencies in the First
       American construction loan portfolio.

The examiners indicated key aspects of third party vendor lending functions that
warranted sound business practices included, at a minimum:

      Regularly analyze the program‟s impact on net worth, profitability,
       delinquency, charge-offs, liquidity, and interest rate risk.

      Properly evaluate and oversee all underwriting criteria to ensure all data was
       accurate and meets the credit union‟s standards. This included verification of
       creditworthiness, debt to income, lien perfection, and insurance coverage.

      Evaluate the payment process to ensure accurate reporting of delinquency
       and maturity of loans.

      Test the accuracy of any third-party vendor reports.

      Include an exit clause in any third-party vendors servicing agreement.

The examiners noted two concerns with the First American RCL program:

   1. The program had grown to become over 40 percent of Norlarco‟s loan
      portfolio as of September 30, 2005.

       Norlarco‟s loan policy indicated third party construction loans with committed
       permanent financing may have been subject to portfolio limits set by the
       Financial Planning Committee. However, there was no limitation set for the


                                          41
       guaranteed residential construction loans. There had been no formal
       quantitative risk analysis dealing with the high concentration level of
       residential construction loans in the Florida area and other possible locations
       within the United States. The examiners indicated Norlarco management
       should have conducted a risk analysis to determine an acceptable level of
       risk.

   2. First American‟s RCL program carried with it the risks of any third-party
      lending arrangement.

       First American conducted the underwriting of the borrower, qualified the
       borrower as a potential member of Norlarco in order to place the loan,
       arranged for the contractor to build the project, conducted the inspections,
       forwarded draw requests and interest payments to Norlarco based on its own
       inspections and schedule, and qualified the borrower for a take-out loan by a
       lender all without any approvals by Norlarco management. First American
       also forwarded extensions of matured loans and interest payments on those
       loans to Norlarco, which resulted in Norlarco management‟s dependence on
       First American for the entire conduct of the loan, from start to finish, without
       Norlarco conducting any due diligence on any borrower. The examiners
       indicated the primary source of repayment for the loan was the take-out
       arranged by First American, and the secondary source of repayment was
       First American‟s guaranty. The borrower did not represent a repayment
       source or a potential member of Norlarco in terms of relationship, cross-sell
       opportunities, or membership beyond the duration of the loan.

In addition, NCUA examiners noted:

      First American reviewed all appraisals and documentation. There was no
       internal process by Norlarco to validate this process.

      First American was allowed to make a “service advance” to the credit union
       for the amount past due on borrower loans due up to the amount of the
       interest reserve that were more than forty-five days past due on interest.

Furthermore, examiners learned Norlarco management approved a $2.5 million line
of credit (LOC) to First American that allowed First American to exercise its buy-back
agreement for seven loans that were seven months past due and eleven loans that
were in the process of litigation or foreclosure. As a result, Norlarco management
did not consider the loans as delinquent. In addition, the examiners indicated it was
not clear if the loans were previously included as delinquent for Asset Quality
calculations.




                                          42
Examiners also indicated:

      The contracts and agreements between First American and Norlarco
       appeared to always be an ongoing work in progress. Many agreements were
       made informally. Examiners noted that, considering the size of the portfolio, it
       would have been imperative that all agreements be formalized and
       completely understood by all parties. Formal agreements should have been
       in place for the protection of the credit union. Exit clauses and the ability to
       adjust levels to market should have been paramount in protecting the credit
       union.

      The Norlarco Board was deficient in its capacity as policy makers and in
       establishing specific operating goals and the strategies to achieve those
       goals. The Financial Planning Committee was deficient in carrying out its
       duties within a defined and disciplined approach to managing the specific risk
       areas within its delegated charge – credit risk, interest rate risk, liquidity risk,
       and strategic risk.

      On-site management was operating in a position of limited effectiveness due
       to the announced retirement of the CEO and the resignation of the Chief
       Financial Officer (CFO). In the absence of strong leadership, Norlarco had
       exceeded previously established limitations and guidelines for safeguarding
       concentrations of credit, the measurement and monitoring of interest rate risk,
       and had incurred excessive liquidity risk, which in turn created heightened
       strategic risk. Both the Financial Planning Committee and management failed
       to adequately and completely report, to the Board, Norlarco‟s increasingly
       leveraged and illiquid position.

      Although the Supervisory Committee, with the assistance of Norlarco‟s
       internal auditor, identified some of the increased risks and raised concerns
       with the measurement and monitoring of those risks, those concerns did not
       attract the attention or generate any action on the part of the Board.

      Norlarco had a serious liquidity issue. The underlying problem and cause
       was that Norlarco management had agreed to fund $35 million [sic] in First
       American loans per month. Examiners noted Norlarco had credit facilities in
       place to stave off a liquidity crisis in the short term. In addition, examiners
       indicated the influx of construction loans was offset through a participation
       program; however, the rate of outflow by participation had abated significantly
       in recent months, with no agreements in place to purchase the large amounts
       required to restore liquidity equilibrium. Norlarco had to resort to borrowings
       to fund the incoming loans it was obligated to buy, resulting in an increasingly
       leveraged and illiquid position. Two target liquidity ratios Norlarco
       management established for 2005 were (1) Total Loans (as a percent of Total
       Assets) of less than 80 percent, and (2) Cash plus Short-Term Investments


                                            43
           (as a percentage of assets) greater than 15 percent. As of September 30,
           2005, the first ratio was 88.54 percent63, and the second ratio was 4.85
           percent64.

NCUA examiners summarized Norlarco‟s inadequacies with its involvement in the
RCL program as follows:

          The Board policy didn‟t assign responsibility [for the program]; therefore, there
           was no accountability.

          Norlarco management had not done an Interest Rate Risk measurement
           review in five quarters.

          The Financial Planning Committee was essentially inactive.

          Norlarco‟s liquidity management was unacceptable.

               o Norlarco did not have a highly leveraged liquidity position.
               o Norlarco management did not have a formal process for liquidity
                 management.
               o Neither the Board minutes nor the minutes contained discussion
                 regarding liquidity in the last twelve months.

          Norlarco management‟s cash flow forecasts indicated funding difficulties in
           the last three months of 2005.

          Norlarco‟s Senior Vice President for Operations seemed to be the only one
           who knew anything regarding participation loan sales and management of this
           secondary marketing function. It is unacceptable to place this critical function
           in hands of one person.

          Within the ALM policy and process, there was no reporting process that
           demonstrated compliance with policy limits. The policy was also silent in
           terms of who was responsible for its implementation.

Regarding loan participation sales, examiners indicated Norlarco management
should have had listings of potential buyers on hand, the balance of past purchases,
estimated future commitments, and a knowledge of their legal purchase limits if
applicable. The examiners added that the same committee that managed liquidity or
interest rate risk should have monitored and overseen the loan participation sales
process. The existing loan participation sale process was being managed by one


63
     The peer ratio as of June 30, 2005 was 66.86 percent.
64
     The peer ratio as of June 30, 2005 was 12.85 percent.


                                                        44
individual, which examiners indicated was a serious control deficiency for a $347
million dollar credit union.

NCUA’s Plan for Corrective Action

In working with the Colorado SSA, NCUA expected to have the following DOR items
included in the examination report with discussion, approval, and compliance
anticipated on all issues from management.

                               Liquidity Management

 Board of Directors      Limit new construction loan commitments to 80 percent of paid off
                         loans until such time as the credit [sic] was able to operate without
                         borrowed funds for 60 consecutive days, and non-member deposits
                         were less than 15 percent of member deposits. The examiner
                         noted that the SSA and management may not have agreed with this
                         process, but it was on the table and would only be removed if an
                         acceptable alternative could have been developed.

 Board of Directors      Perform a liquidity management self assessment after reviewing.

 Board of Directors      Create a Liquidity Review committee and assign responsibility for
                         liquidity management to the Financial Planning Committee.

 Liquidity Review        Meet no less than monthly to review the liquidity position, develop
 Committee               liquidity management strategies, insure sufficient operating liquidity,
                         and ensure that Norlarco had sufficient contingent liquidity sources
                         available. This committee should have managed all assets sales,
                         participation sales, non-member deposit funding, and borrowing
                         activity.

 Board of Directors &    Develop or incorporate within existing policies specific liquidity
 Liquidity Review        management requirements, including limits on the use of assets
 Committee               [sic] specific funding sources

                            Asset Liability Management

 Financial Planning      Insure that Norlarco developed a process to actively measure
 Committee               interest rate risk according to existing credit union policies.
 December 31, 2005




                                         45
                                    Concentrations

 Board of Directors       A risk analysis on the Residential Construction portfolio should have
                          been fully evaluated to determine an acceptable risk appetite.

                            Third party reporting systems

 Board of Directors &     Overall [sic] management needed to embrace the importance that
 Management               the First American program needed to establish and realize that
                          control measures increase in importance by using a third-party
                          vendor to perform loan underwriting activities (underwriting,
                          servicing, inspections, collection, and foreclosure processes) as well
                          as effective monitoring and review systems.

                              Contracts and Agreements

 Board of Directors &     Management should have reviewed all agreements with First
 Management               American to ensure that all aspects of understood agreement [sic]
                          informal or formal [sic] were formalized. Formal agreements should
                          have been in place for the protection of the credit union. Acceptable
                          limits, exit clauses, and ability to adjust levels to market should have
                          always been paramount in protecting the credit union.

 Document of
                      The Colorado SSA examiners required Norlarco management
 Resolution
                      and the Board to:

                        Management

Board of Directors      Establish, at the policy level, target limits of the amounts
Immediately and         of different loan types in which Management may have
Ongoing                 invested. The policy should be reflective of the goals
                        established in the Strategic Plan for Norlarco Credit
                        Union, and should have integrated guidelines and ratio
                        considerations contained in the Credit Union‟s Loan
                        Policy, Asset/Liability Management Policy, and its
                        Liquidity Policy.

Board of Directors      Review for revision the Policy and Methodology for
Immediately and         establishing and maintaining an adequate Allowance for
Ongoing                 Loan and Lease Loss that would have addressed the risk
                        represented by the current excessive concentration in the
                        loan portfolio.




                                           46
Board of Directors,   Consider any of the following methods for calculating and
On-site               limiting credit concentration and liquidity risk:
Management
                            By recognizing First American‟s guaranty as the
                             secondary source of repayment for the First
                             American construction loans, limit the Credit
                             Union‟s portfolio of those loans, funded and
                             unfunded, [sic] less participated amounts, to
                             Member Business Lending limits of 15 percent of
                             the Credit Union‟s Net Worth, or about $4.2 million,
                             less the $2.5 million line of credit granted to First
                             American in August. Any amount beyond those
                             limits might have been subject to reserve in the
                             Allowance for Loan Loss based on historic portfolio
                             levels of net charge off.

                            Limit the commitment for funding of First American
                             construction loans in any month to 80 percent of
                             paid or participated loans already in the portfolio
                             until such time as the credit union was able to
                             operate without borrowed funds for 60 consecutive
                             days and non-member deposits were less than
                             15% of member deposits.

                            Obtain written agreements with participation
                             partners to purchase loans in an amount sufficient
                             to restore the Credit Union‟s liquidity level to those
                             established in its business plans. Restrict new
                             purchases and commitments until those
                             agreements were in place.

                      Communication

Board of Directors,   Before the twenty-fifth day following the close of each
On-site               calendar month, mail a complete Board information
Management            packet to the Examiner that included the following items,
Monthly               at a minimum:

                            Board minutes

                            Committee minutes, as applicable

                            Balance sheet and income statement

                            Delinquency report


                                         47
                               Cash flow or liquidity reports

                               Allowance for loan loss adequacy report

                        Other Examination Areas

Board of Directors,     Correct the Examiner Findings and Loan Exceptions
On-site                 contained in this report, where possible, and take
Management              corrective action to prevent their recurrence in the future.
Upon Receipt of
Report

                     NCUA completed a code 26 review in February 2006. The
 Code 26
                     Code 26 resulted in NCUA raising the Earnings CAMEL
 Review of
                     component from a 3 to a 1. The examiner rated the following
 Examination
                     risks as High: Credit Risk, Interest Rate Risk, and Liquidity.
                     The examiner noted there were five key risks resulting from the
large growth of the First American portfolio:

   1. Liquidity Risk – unfunded loan commitments and growth of the First American
      loans resulted in tight liquidity levels. Management reached into expanded
      markets of brokered deposits, borrowed funds, and loan participation sales.

      Management‟s original plan for the RCL program was to generate a large
      volume and hold it on Norlarco‟s books, selling off a sizeable portion by the
      end of 2005 to reduce the outstanding loans to $65 million. This change in
      plans resulted in serious liquidity problems. As of September 2005, the
      outstanding balance of loans in the First American portfolio was $142 million.
      The SunCorp and FHLB lines of credit were fully funded. There was very little
      formalized analysis to evaluate the impact of allowing the construction loan
      portfolio to grow to this size. Norlarco management should have considered
      the following risks:

             Liquidity
             Concentration Levels
             Economic Impact
             Availability of markets to sell the loans.

   2. Loan Concentrations – geographic, industry, economic, and single guarantor.
      A major percentage of the construction loans were located in Florida. There
      was no formalized analysis or quantification of risk factors in assessing
      acceptable risk levels.

   3. Third-party control and reporting systems needed improvement


                                           48
   4. Commitments and agreements lacked formalized policies, limits, and
      procedures.

   5. Changing management structure.


March 31, 2006

 Code 23 Joint        The Colorado SSA and NCUA completed a 24 hour joint onsite
 Contact              contact at Norlarco in May 2006 using credit union data
                      effective March 31, 2006. The regulatory agencies rated the
                      Asset Quality, Management, and Earnings components a 3 and
the Asset/Liability Management component a 4. The overall composite rating was 3.
The purpose of the contact included reviewing the following areas:

      Liquidity status and management planning and reporting processes

      The First American Portfolio

      Any new agreements between Norlarco and First American

      Strategic Plan and Budget for 2006

Liquidity

Examiners indicated Norlarco‟s liquidity levels had improved substantially since the
last contact. In addition, the examiners indicated the reduction in the level of
Norlarco‟s borrowed funds had been substantial since the end of 2005.

First American

Examiners indicated Norlarco management had taken several steps to try to improve
the monitoring and risk assessment of the First American portfolio:

      A third party completed a risk assessment in April 2006. However, the
       examiners‟ opinion of the assessment was that it was weak in terms of
       identifying and quantifying risk.

      Norlarco management had indicated they were only buying construction loans
       from two builders – 12-month stick built homes from FHBF in Florida, and six-
       month modular construction loans from Palm Harbor Builders in Texas.
       Examiners indicated this reduced some areas of risk, but may have increased
       risks in other areas.



                                         49
      Norlarco management no longer had a monthly purchase commitment
       agreement with First American. Examiners indicated management was
       monitoring [the portfolio] closely and planned for funding not to exceed pay
       downs in the portfolio.

      Examiners identified other areas of risk that needed to be monitored and
       controlled closely, including:

       o Smaller builder and broker loans that provided much higher performance
         risk. Norlarco management indicated Norlarco had not purchased any of
         these loans since August 2005. Examiners indicated the $38 million in
         outstanding loans in this category would have been almost completely
         paid out by September 2006.

       o There were still a high number of loans that were classified as business
         loans because the individuals were purchasing multiple homes in the
         same area. Examiners indicated Norlarco did not classify these homes as
         Member Business Loans (MBLs). The examiners had two concerns with
         these loans:

              1. In the event of an economic downturn, the examiners expected that
                 a large number of these loans would have defaulted, resulting in a
                 high number of foreclosures. The examiners noted the Florida and
                 Texas markets remained strong.

              2. The examiners found the income levels of some of the loans in
                 question. The examiners indicated they believed income
                 verification should have been required in many of the cases.
                 Examiners indicated they discussed this with Norlarco management
                 and with the internal auditor at Norlarco and asked them to review
                 this area and adjust loan policies and procedures if necessary.

          There was some concern that Norlarco may have been purchasing some
           construction loans from New Horizons. Examiners indicated Norlarco
           management said they had not knowingly done so and had only
           purchased loans from First Home and Palm Harbor since August 2005.

New Agreements with Norlarco and First American

Examiners indicated Norlarco management had neither entered into nor planned to
enter into any new agreements with First American in terms of commitments to
purchase any loans. Examiners also indicated Norlarco management allowed up to
a 40 percent mix of the loan portfolio to be in First American. Examiners noted
Norlarco‟s mix was slightly above that limit. However, the examiner indicated if



                                         50
maturity and payoffs correlated, there would have been substantial declines in May,
June, and July.


June 30, 2006

     Code 23 Joint The Colorado SSA and NCUA completed a 139 hour joint
     Contact       onsite contact at Norlarco in August 2006 using credit union
                   data effective June 30, 2006. The regulatory agencies rated
                   the Asset Quality, Management, and Asset/Liability
Management CAMEL components a 3 and the Earnings component a 4. The overall
composite CAMEL rating was a 3. The examiners focused on:

          An extensive review of the First American portfolio to assess risk, specifically
           on the high number of extensions and to determine if any adjustment to the
           ALL was needed.

          The management of Liquidity.

          The profitability of Norlarco‟s wholesale (First American) program.

          The core credit union consumer lending portfolio to assess why delinquencies
           and charge-offs were so high.

          The management team.

The examiners indicated ratio analysis reflected Norlarco‟s declining profitability in
2006 from 2005 due to lower loan yields and higher cost of funds to support the
loans. The examiners indicated the yield on average loans had declined nearly 80
basis points, while the cost of funds had increased by more than 50 basis points.
Examiners indicated Norlarco‟s Net Worth had increased to 8.74 percent due in part
to a decrease in Total Assets along with positive earnings. However, the examiners
indicated the composition of assets continued to be a concern because real estate
lending, primarily in the wholesale RCL program, continued to dominate the loan
portfolio. NCUA determined:

          Norlarco did not have any formal analysis for determining the profitability of its
           RCL program.

          Norlarco‟s servicing income for the first six months of 2006 was $379,823.65
           In addition, Norlarco received $195,400 in extension fees.66 Norlarco‟s total


65
     Income was from the 0.375 percent servicing fee on each loan.
66
     The fee was $200 per loan per extension.


                                                       51
       income from interest income, servicing fees, and extension fees from the RCL
       program totaled 59.49 percent of total operating income as of June 30, 2006.

The examiners determined that non-member funds and borrowings would not have
been necessary if Norlarco had not been in the RCL program. In addition,
examiners determined the yield from the RCL program was lower than the
remainder of the asset structure when allocating the cost of debt and non-member
deposits directly to the RCL program. However, the examiners determined the
program remained profitable when considering the servicing income. On the other
hand, the trend showed a declining yield. The examiners indicated this was
unexpected because the RCL program loans were a short term loan product. The
examiners had concerns with the stability of the profitability of the wholesale
program as the rate charged on the portfolio was tied to the prime rate.

Examiners indicated Norlarco‟s involvement in the RCL program, and the funding
the program necessitated, had created an ongoing liquidity issue for Norlarco.
However, since the last examination, the Cash plus Short-Term Investments divided
by Assets increased from 4.85 percent as of September 30, 2005 to 9.42 percent as
of June 30, 2006, reflecting a significant improvement in liquidity. On the other
hand, based on the peer average of 16.99 percent as of March 31, 2006, there was
room for Norlarco to improve. The ongoing need for expensive funds for liquidity
purposes continued to depress the earnings potential of the RCL program.
Examiners indicated Norlarco management had not developed what they would
have deemed a reliable outlet for participating the RCL program loans. This is
another issue that should have been addressed long ago by policy and plan. The
examiners concluded Norlarco‟s liquidity issues would likely continue given the
potential for slowing and stagnation in the market and extensions of the maturities of
the RCLs.

NCUA officials indicated:

      Norlarco management needed to establish an approved, validated and
       quantified vehicle or conduit to ensure that funding lines were pre-approved
       and in place before any approval or funding of RCL loans.

      RCL program loans outstanding should never exceed the internal limit
       established by Board policy.

      There were signs of improvement on Norlarco management‟s part. However:

       o Liquidity risk showed moderate improvement since the
         September 30, 2005 examination. Norlarco management had utilized
         non-member deposits along with the FHLB line of credit. Projections for
         the remainder of the year indicated that borrowed funds would peak at $23
         million and would reduce to $8 million by October, when no further debt


                                          52
          would be needed. The uncertainty of the projections came from the fact
          that the levels of First American payoffs in relation to the funding of the
          construction draws had been erratic, but management indicated the
          condition was stabilizing and they hoped to have more accurate
          projections going forward.

       o There were no commitments or contractual agreements with First
         American or any of the borrowers for commitments to purchase. Norlarco
         management indicated they could shut down any further purchases of new
         loans at their discretion.

Examiners determined the RCL program was a factor in assessing Norlarco‟s asset
quality. The examiners indicated First American underwrote and originated the
loans, and qualified the borrower for membership in Norlarco and for the loan. First
American also arranged the permanent financing, conducted the inspections, and
issued draw requests based on its oversight of the process. Examiners determined
Norlarco‟s delinquency was unknown because First American had the ability to
approve extensions within its own judgment, with no input from Norlarco. However,
the examiners indicated Norlarco management recently began to report extensions
and to monitor the progress of those extended loans.

Examiners determined that, regarding the RCL program, gaps appeared between
planning and policy, the responsibility of the Board, and execution and procedures.
Oversight and control had lagged program involvement.

In addition, the examiners indicated the real estate lending and the RCL created a
concentration risk that seemed readily apparent to the regulators, but not to Norlarco
management. Norlarco management maintained that the loss history and the
layered guarantees it had received from the builder, FHBF and the third-party
originator, First American, averted any risk to Norlarco‟s capital. Based on that
premise, Norlarco management continued to purchase RCLs through First American
even though (1) Florida, the primary market for the RCLs, had experienced a
slowdown, (2) hurricane-related contingencies had slowed the progress of
construction to completion on the homes, and (3) higher mortgage loan rates had
affected demand. As a result, NCUA examiners determined:

      Management should have addressed the absence of risk diversification within
       the asset structure of the credit union and specifically the wholesale program.

      Norlarco should have established concentration limits dealing with geographic
       distribution, market area, builders, and portfolio mix.

      Norlarco‟s level of exposure and risk was deemed unsafe and unsound
       without adequate risk control and mitigation.



                                          53
The examiners determined that beginning in the first quarter of 2006, the risk level of
loan concentrations had increased substantially, resulting in the extension of 38
percent of the outstanding RCL program loans. The percentage of extensions had
increased to almost 48 percent of the RCL portfolio by July 31, 2006.

The examiners also determined that as part of the due diligence process, Norlarco
management and First American should have conducted an analysis to determine if
the production ability and capacity could have maintained a twelve month schedule
of completion in relation to the level of sales. Furthermore, examiners determined
that as a result of the concentration risk, the potential for other risk areas (i.e.,
market, interest rate increases, take-out cancellations, and buyer dissatisfaction)
existed that might have resulted in further delays, foreclosures, or possible financial
trouble with the builder.

The examiners indicated they conducted an extensive loan review, focusing on:

      Loan underwriting;

      Appraisal valuation;

      Extension considerations;

      Any indication of deterioration in the take-out agreements;

      Any indication of borrower dissatisfaction with builder;

      The miscellaneous loan portfolio, how it was performing and whether there
       were problems developing;

      Validation that the delays and need for extensions were a result of the
       production capacity of the builder and not extensive cancellations or walk-
       aways; and

      Any indication of property taxes not being paid.

The examiners noted the following concerns:

      Extensions: There was no indication that the buyers had signed or agreed
       with the extensions or that the interest could be capitalized on their
       construction loans even though the interest was apparently being paid by the
       builder. The examiners indicated that without signed extension agreements
       by the buyers, Norlarco management may have been required to classify the
       loans as delinquent.




                                          54
      Home completions: Examiners indicated Norlarco management had reported
       there were close to 900 homes that had received their Certificate of
       Occupancy, which equated to $175 million. The examiners indicated that per
       Norlarco management, the delays in getting these homes closed and paid off
       were due to:

          o FHBF‟s title company could not handle the large number of closings;
          o Delays in satisfying the “punch list” of the borrower; and
          o Some delays by the borrowers.

NCUA’s Planned Corrective Action

NCUA examiners indicated that, working with the Colorado SSA, they expected to
have the following DOR items added to the DOR approved during the last
examination. The examiners indicated they wanted no new funding of any First
American construction loans until the following items had been resolved and
approval issued by the Colorado DFS and NCUA.

                                 Concentrations

Board of Directors          Cease further funding of new loans with First American or any
and Management              wholesale program until a Strategic plan was developed and
                            approved that established concentration limits dealing with
                            geographic distribution, market area, builders, single guarantors
                            and portfolio mix. The existing parameters and levels were
                            deemed unsafe and unsound.

                       Reporting systems and Due Diligence

Board of Directors &        Address the issue of fully funded homes:
Management
                            o A plan needed to be developed and put into action to
                              accelerate the closings of homes that had obtained their
                              Certificate of Occupancy.

                            o There were a high number of members who had more than
                              one home. [sic]There were some classified as MBLs [sic]
                              and could have been tracked. There were others classified
                              as second homes, but not classified as a [sic] business loan.
                              With the declining sales market, the level of risk for “walk
                              away” increased for these members. Norlarco needed to
                              identify these loans and develop a tracking system to monitor
                              their performance. Norlarco needed to determine if there
                              was a correlation between homes fully funded and MBLs or
                              second homes.


                                        55
                            o FHBF had indicated there were between 35 and 40 homes
                              that were considered problems with no resolution. Norlarco
                              needed to identify these loans and put in place a specific
                              plan of action to resolve them.


                            o Cease any further extensions without specific well-defined
                              parameters and special circumstances for each individual
                              loan that had been approved by the Colorado DFS.

                            o Contract with an independent third party (approved by the
                              Colorado DFS) to validate the status of the FHBF loans
                              outstanding. The wholesale program had a high number of
                              extensions and high number of homes that had received the
                              C/O, but which had not closed.

                                    Profitability

Board of Directors       Develop and monitor a program separating the functions of the
and Management           credit union into profit centers.

                               Liquidity Management

Board of Directors       Provide and report the Financial Planning Committee‟s Cash Flow
and Management           analysis and Liquidity review to the regulatory authorities monthly.

                                Monthly Reporting

Board of Directors       Provide and report each month on the status of the RCL portfolio.
and Management

NCUA recommended a monthly onsite contact be maintained at least through the
end of 2006. NCUA recommended a RCMS during a full examination planned by
the Colorado SSA for October 2006. .


 Document of         The examiners required Norlarco management and the Board
 Resolution          to:


Board of Directors       1. Cease new loans with First American or any wholesale program
and Management           until a Strategic plan was developed and approved that established
Immediately and          concentration limits dealing with geographic distribution, market
Ongoing                  area, builders, single guarantors and portfolio mix.


                                         56
Board of Directors     2. a. Cease funding of new loans with First American or any
and Management         wholesale program until a plan was developed and implemented to
Immediately and        ensure timely closings of homes that had obtained their C/O.
Ongoing with initial
Completion by          2. b. Obtain the details on each of the loans with a C/O to
October 31, 2006       determine if serious problems were developing.

                       2. c. Identify and track the large number of multiple loans to one
                       borrower to monitor performance. Determine if there was a
                       correlation between homes fully funded and MBLs or second
                       homes.

                       2. d. Identify and implement a specific plan of action to resolve the
                       35 and 40 homes that FHBF considered problems with no
                       resolution. Determine the reasons for the problems and assess the
                       remainder of the portfolio to determine if any of these problems
                       were chronic.

                       2. e. Engage an independent third-party to assist in the review,
                       classification, and development of needed actions to ensure that the
                       items required in [sic] items a. thru [sic] d. were completed and
                       implemented no later than October 31, 2006.

                       2. f. Foreclose any loans that were classified as problems and not
                       performing to contract.

Board of Directors     3. Obtain a legal opinion to determine the effect of the large
and Management         number of extensions in the First American borrowers‟ contracted
by September 30,       obligations.
2006

Board of Directors,    4. Expand the focus of the internal audit of the wholesale portfolio.
Supervisory
Committee
and Management
by September 30,
2006

Board of Directors     5. Develop and monitor a program separating the functions of the
and Management         credit union as separate profit centers. Complete analysis that
by November 30,        could have effectively determined the profitability and trend
2006                   attributes of both the wholesale program and on [sic] the core credit
and ongoing            union operations.



                                       57
 Board of Directors             6. a. Provide to the Colorado DFS and NCUA the Financial Planning
 and Management                 Committee‟s Cash Flow analysis and Liquidity review.
 by September 20,
 2006 and monthly               6. b. Provide to the Colorado DFS and NCUA a report on the status
 thereafter                     of the First American portfolio and the status of completion of all
                                DOR items.

The examiners indicated that in spite of excellent cooperation in obtaining the types
of reporting that NCUA had required from Norlarco, it was likely that NCUA would
not wait for further reporting to place Norlarco in Special Actions. The examiners
indicated that much of the reporting requirements in the DOR was retroactive to the
type of due diligence that should have been done before Norlarco entered into the
RCL program. The examiners anticipated that there was going to be a required on-
site contact prior to the next examination, which was scheduled for February 2007.


September 30, 2006

                   The Colorado SSA and NCUA completed a 77 hour onsite
     Code 23 Joint
                   contact of Norlarco in November 2006 using credit union data
     Contact
                   effective September 30, 2006. The regulatory agencies rated
                   the Asset Quality, Management, and Earnings CAMEL
components a 3 and the Asset/Liability Management component a 4. The overall
composite CAMEL rating was 3.

The examiners indicated that Norlarco management decreased its goal of RCL loans
to Assets from 40 percent to 10 percent. The examiners also indicated blanket
extensions were still being performed up to six months. Furthermore, the examiners
indicated Norlarco management had not adjusted its ALLL account for potential
losses in the RCL program.

The examiners indicated that, since Norlarco recently hired a new CEO in August
2006, there was a willingness and ability to correct poor decision making by previous
management. Examiners perceived a noticeable change in management‟s attitude
toward the RCL program. During this contact, conversations with the individuals of
the Executive Management Team,67 the Internal Auditor, and the Associate Vice
President of Wholesale Operations, showed there was a noted willingness to comply
with the DOR. Their comments also reflected management‟s recognition of the
potential risks in the RCL program.

NCUA examiners determined that Norlarco‟s MBLs represented 12.92 percent of
total assets as of June 30, 2006. This level of MBLs exceeded the requirement that


67
   The CEO, Interim CFO/Vice President Lending/Finance/Information Technology, and the Senior Vice
President of Operations


                                                   58
MBLs be no greater than the lesser of 1.75 times net worth or 12.25 percent of total
assets.


December 31, 2006

                     The Colorado SSA and NCUA completed a 45 hour onsite
     Code 23 Joint
                     contact of Norlarco in February 2007 using credit union data
     Contact
                     effective December 31, 2006. NCUA rated the Asset Quality,
                     Management, and Asset/Liability Management components a
3 and the Earnings component a 4. The overall composite CAMEL rating was 3.

Examiners indicated:

          Norlarco continued to struggle to get control of the RCL program. They noted
           the dollar amount of RCL program commitments versus funded loans was as
           follows:

                              Total Sum of Investor68
                              Commitment                                         $298,410,973
                              Total Sum of Norlarco Commitment                   $ 86,701,840
                              Total Sum of Commitments                           $385,112,813

                              Total Sum of Investor funded                       $249,418,838
                              Total Sum of Norlarco funded                       $ 74,633,995
                              Total Sum of Funded                                $324,052,833

          Ninety-seven percent of the RCL portfolio properties were located in Florida,
           one percent was located in Colorado and two percent were located in 39
           other states.

          When they were last on site, the credit union stated they would not perform
           any more blanket extensions. However, the assistant vice president of
           Wholesale Operations/Project Manager, said extensions up to three would
           continue in blanketed form.

In addition, examiners indicated that although Norlarco was performing a plethora of
reporting for RCL, there continued to be a disconnection between who was doing
what (Norlarco, FAM, FHBF/KHov). Norlarco had yet to take control of the program
and stood by its belief the loans were performing assets. However, as of February
5, 2007, examiners learned Norlarco had not received interest payments since
December 2006, which changed the definition for performing assets. Norlarco was

68
     100 percent owned portfolios by Banco Poplar; Principal Bank; and First American.


                                                        59
awaiting the decision by KHov as to whether an agreement could be reached to
receive interest payments. KHov wanted all RCL loans fully funded by Norlarco and
its investors.


December 31, 2006

                        The Colorado SSA and NCUA completed a 328 hour
     Code 11 Joint
                        examination of Norlarco in April 2007 using credit union data
     Examination
                        effective December 31, 2006. NCUA rated the Capital
                        component a 2, the Asset Quality and Earnings components a
5, the Management component a 4 and the Asset/Liability Management CAMEL
components a 3.69 The examiners downgraded the overall composite CAMEL rating
to a 4, indicating Norlarco was not in control of the RCL program that was negatively
impacting its financials. The examiners reviewed the RCL program during this
examination.

The examiners‟ primary concerns were that the Norlarco Board and management
needed to concentrate their efforts and attention on the following areas, each of
which came from the ongoing, dominant concern with the wholesale RCL program:

         Risk exposure posed by the uncertainties of the retail construction loan
          program. The program presented heightened Credit Risk, Interest Rate Risk,
          Liquidity Risk, Strategic Risk, and Reputation Risk.

         The previous lack of inclusion of the RCL program in planning for liquid
          resources created a dependence on non-member funds and borrowing to
          fund on-going operations.

         The lack of inclusion of the RCL program in the Strategic Plan and Budget.

The examiners determined that many of the problems and challenges which had
surfaced and dominated the present and future of Norlarco came from the failure of
the Board of the credit union to establish, review, and revise the policies that guided
the credit union. The following findings and subsequent required actions reflected
the common denominator of deficient policy, planning, direction, due diligence and
oversight, specifically in the RCL program. The findings included:

         There was no formal documentation indicating a legal review was performed
          on the contracts for the RCL program.



69
  The SSA rated Norlaro as follows: Capital component a 2, the Asset Quality and Earnings components a
5,and the Management Asset/Liability Management CAMEL components a 3.


                                                    60
   The credit union had not yet received the interest payments for March and
    continued to negotiate with KHov for interest payments moving forward.

   In a meeting between Norlarco‟s CEO and representatives from First
    American and K Hovnanian First Homes, LLC/KHov Enterprises, nothing was
    resolved in the CEO‟s efforts to ensure interest would continue to come from
    KHov. KHov representatives wanted to negotiate the interest by having
    Norlarco take some Deeds in Lieu.

   Review of participation agreements indicated the Principal Bank
    documentation was with recourse after holding the loan for 18 months from
    initial commitment date. The Banco Poplar contract stated a repurchase must
    take place if there was a material misrepresentation within twelve (12) months
    of purchase. Also, there was an addendum agreement added to the
    participation agreement for Capital Community Credit Union: "Seller is
    obligated to repurchase the loan from Participant in the event that Seller
    commits a breach or default under this Agreement or Seller's conduct
    constitutes a negligent act or omission. The seller must pay within 5 days
    following Participant's demand for recourse payment.” It did not appear the
    other participants had recourse in their agreements.

   Regarding the characteristics of the RCL portfolio – over 400 RCL loans were
    reviewed during the examination addressing Credit Quality and Borrowers
    Capacity. Of the loans underwritten in 2006, 25 percent reflected a credit
    score less than 620. Additionally, although income was identified in the loans
    underwritten in 2005, the income was not verified. For the loans underwritten
    in 2006, the applications no longer included income figures. Overall, the
    borrower‟s capacity was indeterminate and the low credit scores indicated
    increasing credit risk.

   Regarding, the borrowers‟ location, 40 to 50 percent of Norlarco wholly-
    owned loans were from borrowers established in the Miami area. This
    indicated a move to Lehigh Acres or Cape Coral unlikely. Permanent
    Residential Aliens living in Miami were identified in 50 of the loans reviewed.
    These borrowers were predominantly renters and employed in trucking and
    delivery, making relocation to a rural area for a first or second residence
    highly unlikely.

   Regarding the borrowers‟ intent (Speculative vs. Residential) – a majority of
    loans were first and second residences. Characteristics of the loans did not
    support this intent. Credit scores did not support a second residence and
    without stated income, examiners were unable to determine if borrowers had
    the capacity to support a second residence.




                                       61
   Regarding inconsistencies in reporting – there was conflicting documentation.
    The loan documentation listed properties were for investment, while credit
    union documentation indicated the properties were first and second
    residences.

   Regarding Member Business Loans –the credit union was unable to
    determine that the first and second homes financed by the borrowers were
    not investor loans. The credit union was to review all loans and reclassify
    them appropriately.

   Regarding appraisal reasonableness – the original appraisal was performed
    in an upward trending market. When the market showed signs of slowing, no
    accommodation was made in the appraised value.

   There were potential losses considering:

       o [Property] values had fallen while the loan amount was based on
         appraisals performed in a hot market on a steep upward trend;
       o The number of days since the issue of C/O, it was clear the borrower
         did not plan to occupy the property;
       o Legal action expenses to get possession of property;
       o Expenses for upkeep/maintenance until the property is sold;
       o Vacant homes increase risk of vandalism and squatters; and
       o Extensions granted to avoid delinquency and maintain interest
         payments – violating the integrity of financial reporting and disclosures.

   Troubled loan and impaired credits required disclosure for potential loss risk
    for the loans in the Allowance for Loan Loss. The potential allowance for the
    RCL program would have been $1.8 million and ramping up as loans
    remained on the books and the number of days increased from issuance of
    C/O creating a provision of another $700,000 creating a loss potential of $2.5
    million. The credit union showed a negative ROA [sic] for January 2007
    because of funding the PLLL expense for the RCL program and writing off
    over $250,000 for in house HELOC loans. The increased provision amount
    would have also created a negative impact on the ROA [sic] for February
    2007.

   Regarding potential legal risks – Inconsistencies in loan documentation. For
    example, the notes and truth in Lending disclosure indicated the member was
    responsible for the monthly interest payments to be made to the lender
    (Norlarco). The Agreement to Purchase Home indicated the Builder/Seller
    was to pay costs and interest during construction. The revised funding
    procedures indicated interest was drawn from the construction loan on a
    monthly basis as long as there were remaining funds available. However,
    there was no disclosure of this to member. The sales disclosure indicated the


                                      62
       funds were for purchasing property, construction of home, and improvement
       of site – there was nothing about an Interest Reserve amount. In addition, the
       loan documentation showed the member paying a non-refundable Earnest
       Money Deposit that was to be used to pay for the appraisal and credit report.
       However there was nothing to verify if money was collected, and it was not
       disclosed in the HUD settlement Form.

      The RCL program was not addressed in the budget for 2007 and the strategic
       plan reflected growth of 20 percent in assets and 60 percent in the retail loan
       program with monies from the RCL program moved into investment.

Required Board       The Required Board Actions contained guidance and
Actions              directives regarding the expectations of the Colorado DFS and
                     NCUA for Norlarco Credit Union to proceed in the matters as
                     they pertained to the RCL program, First American, and K.
Hovnanian First Home Builders, LLC, and other examination outcomes. The
Required Board Actions included:

                          Residential Construction Loan Program

Board of Directors        1. Cease funding of new loans with First American or any
In Progress                  wholesale program.

Board of Directors        2. Retain an independent attorney with contract litigation expertise,
Immediately                  who was not already associated with the RCL program, to
                             review the contracts/addendums/letters for the RCL program.

Board of Directors        3. Attain legal guidance as to the recourse provisions of the
Immediately                  participation agreements/circulars, and explicit and implied
                             representations and warranties made by the credit union to
                             investors including Banco Popular of North America and
                             Principal Bank. An independent attorney not involved in the
                             drafting of the agreements was to perform the review.

Board of Directors        4. Attain legal guidance as to the exposure from paying monthly
Immediately                  interest payments from the funds drawn from the construction
                             loan amount.

Board of Directors        5. Attain legal guidance regarding the HUD-1 Settlement
Immediately                  Statements not including the earnest money paid by the
                             member.

Board of Directors        6. Reclassify all RCL loans as member business loans providing
March 31, 2007               full and fair disclosure for the RCL loans no later than the March
                             2007 reporting period.


                                         63
Board of Directors   7. Inform First American about enforcement of Article 2, §2.2, of
April 10, 2007          the Funding and Servicing Agreement.

Board of Directors   8. Require First American to repurchase all loans that were seven
April 10, 2007          months past the original maturity date, as was required by Article
                        2, §2.2, of the Funding and Servicing Agreement.

Board of Directors   9. Seek legal action against First American for any violation of the
April 10, 2007          Funding and Servicing Agreement.

Board of Directors   10. Cease granting any further extensions of maturity date for RCL
Immediately              loans that have an issued C/O.

Board of Directors   11. Cease granting any further extension of maturity date for those
Immediately              loans where construction was in process and a C/O had not
                         been granted without first:

                        a. Investigating the reasons for extension for each individual
                           loan on which an extension of maturity date was requested;
                           and,
                        b. Only grant an extension when your investigation finds the
                           supporting reason was due to construction delays caused
                           by material and labor shortages, weather and other acts of
                           God, and/or governmental permitting issues.

Board of Directors   12. Notify First American, FHBF and K Hovnanian immediately that
Immediately              Norlarco would have only permitted extensions to maturity
                         according to the terms of these Required Board Actions.

Board of Directors   13. Order follow-up appraisals on a minimum of 10 properties in
April 10, 2007           each of the Lehigh Acres and Cape Coral areas, for a total of 20
                         loans. An independent firm not associated with any of the initial
                         appraisals performed for the RCL loans was to perform the
                         appraisals. Additionally, Norlarco was required to be the party
                         ordering the appraisals.

Board of Directors   14. Modify the Allowance for Loan Loss methodology so that it
Immediately              would have provided for full and fair disclosure of the potential
                         loss in the RCL loans.




                                     64
Board of Directors     15. Implement a plan to ensure closings of homes that had obtained
Immediately                their Certificate of Occupancy coordinating this plan with First
                           American, FHBF/KHov, and Norlarco with details and
                           timeframes for completion.

Board of Directors     16. Develop a watch list of troubled loans.
March 31, 2007

Board of Directors     17. Monitor and take appropriate action for loans on the watch list.
March 31, 2007

Board of Directors     18. Modify the 2007 Budget to include the RCL program and costs
April 10, 2007             associated with the program.

Board of Directors     19. Update the Strategic/Business Plan addressing the RCL
April 10, 2007             program and the credit union‟s strategy to tackle the potential
                           problems and foreclosures of homes associated with this
                           program.

                                                      Policies

Board of Directors     On a calendar-based agenda or other schedule adopted by the
During 2007 and        Board, review and revise as needed the policies of the Board.
Ongoing                Assure that the policies reflected the direction and intent of the
                       Board and the mission statement, strategic plan, and business plan
                       of the Credit Union. Confirm that each policy reflected the most
                       recent date of review.

Status of DOR items from the June 30, 2006 Examination



Board of Directors     1. Cease new loans with First American or any wholesale program
and Management         until a Strategic plan was developed and approved that established
Immediately and        concentration limits dealing with geographic distribution, market
Ongoing                area, builders, single guarantors and portfolio mix.

                       The credit union had implemented a 10% limit on the RCL program.

Board of Directors     2. a. Cease funding of new loans with First American or any
and Management         wholesale program until a plan was developed and implemented to
Immediately and        ensure timely closings of homes that had obtained their C/O.
Ongoing with initial
Completion by          Non-compliance.
October 31, 2006


                                       65
2. b. Obtain the details on each of the loans with a C/O to
determine if serious problems were developing.

The credit union contacted the borrowers on loans that had been
fully-funded while First American contacted the borrowers with
Certificates of Occupancy. However, no formal documentation
reporting was performed to the Board.

2. c. Identify and track the large number of multiple loans to one
borrower to monitor performance. Determine if there was a
correlation between homes fully funded and MBLs or second
homes.

The credit union had identified Investor (MBL) loans by multiple
loans to one borrower. However [sic] no formal reporting regarding
the performance of these loans. Additionally, it was recognized that
there were more loans that were identified as second homes, but
the borrower had either skipped or was non-cooperative indicated
the intent of the borrower was initially an investment home. The
RBA required credit unions to classify all of their RCL loans as
MBLs until tangible proof, other than loan documentation, could be
produced.

2. d. Identify and implement a specific plan of action to resolve the
35 and 40 homes that FHBF considered problem loans with no
resolution. Determine the reasons for the problems and assess the
remainder of the portfolio to determine if any of the problems were
chronic.

Per the response to the “Abandonment Letter” sent by First
American, the number of these homes had increased [sic] however
there was not a specific plan of action leading to resolution.

2. e. Engage an independent third-party to assist in the review,
classification, and development of needed actions to ensure that the
items required in items a. thru d. were completed and implemented
no later than October 31, 2006.

Norlarco retained Orth, Chakler, and Murnane, [sic] however [sic] no
formal reporting had taken place.

2. f. Foreclose any loans that were classified as problems and not
performing to contract.



               66
                      The credit union was in non-compliance – no foreclosures had
                      taken place.

Board of Directors    3. Obtain a legal opinion to determine the effect of the large number
and Management        of extensions in the First American portfolio on the borrowers‟
by September 30,      contracted obligations.
2006
                      A legal opinion was attained and extensions might have been
                      performed between the builder and the borrower. However, there
                      was nothing regarding blanket extensions. The credit union should
                      have only granted the extension after performing an investigation to
                      find that the supporting reason was due to construction
                      delays caused by material and labor shortages, weather and other
                      acts of God, and/or governmental permitting issues.

Board of Directors,   4. Expand the focus on the internal audit of the wholesale program.
Supervisory
Committee             The credit union was in compliance.
and Management
by September 30,
2006

Board of Directors    5. Develop and monitor a program separating the functions of the
and Management        credit union as separate profit centers. Complete analysis that
by November 30,       could have effectively determined the profitability and trend
2006                  attributes of both the wholesale program and on the core credit
and ongoing           union operations.

                      The credit union was in partial compliance and implemented a
                      program for capturing the costs associated with the RCL program.

Board of Directors    6. a. Provide the Cash Flow analysis and Liquidity review done by
and Management        the Financial Planning Committee to the Division of Financial
by September 20,      Services and the National Credit Union Administration by the 20 th
2006 and monthly      day following the end of each calendar month.
thereafter

                      6. b. Provide to the Colorado DFS and NCUA a report on the status
                      of the First American portfolio and the status of completion of all
                      DOR items.

                      The credit union was in compliance.




                                     67
March 31, 2007

                           The Colorado SSA and NCUA completed a 144 hour onsite
     Code 23 Joint
                           contact of Norlarco in September 2007 using credit union data
     Contact
                           effective March 31, 2007.

The Colorado DFS had issued Norlarco a Cease and Desist on April 18, 2007,
because the credit union was not in compliance with the items from the examination
effective December 31, 2006. The main purpose of the contact was to monitor the
credit union‟s compliance with the Cease and Desist, monitor the conservatorship
action, and evaluate the viability of the credit union.

Auditor’s Note: NCUA and the SSA conducted this examination in September 2007
after the April 30, 2007 examination presented below, which was conducted in June
2007. During the April 2007 examination, the Colorado DFS placed Norlarco into
conservatorship; therefore, we did not include the details of this March 2007
examination.


April 30, 2007

                      The Colorado SSA and NCUA completed a 318 hour onsite
     Code 23 Joint
                      contact of Norlarco in June 2007 using credit union data
     Contact
                      effective April 30, 2007. NCUA rated the Asset Quality and
                      Earnings CAMEL components a 5, the Capital and
Asset/Liability Management components a 3, and the Management component a 4.
The overall composite CAMEL rating was 4.70

First American ceased performing the servicing for the RCL program as of May 4,
2007. Norlarco took over the servicing and transacted directly with FHBF/KHov
regarding payoffs, interest payments, draw requests, and sending reports and draw
requests to investors.

The Colorado DFS placed Norlarco into conservatorship on May 15, 2007, to protect
the interests of Norlarco‟s members from acts or omissions of the existing Board.
The Colorado DFS Commissioner placed Norlarco into conservatorship because the
Commissioner:

         Preferred to have the RCL program “controlled” by NCUA to ensure well
          thought-out decisions;



70
  The SSA rated Norlarco as follows: The Capital CAMEL component a 2, the Asset Quality and Earnings
components a 5, the Management and Asset/Liability Management components a 3. The overall composite
CAMEL rating was 4.


                                                  68
      Had reasonable cause to believe that the credit union Board did not see a
       significant sense of urgency; and

      Believed Norlarco management engaged in unsafe and unsound business
       practices, which included Norlarco management‟s actions to negotiate an
       agreement with FHBF/KHov, legal communications with First American, and
       negotiations with an outside vendor to move servicing from First American.

The Colorado DFS Commissioner appointed the NCUA Board as Conservator for
the action.




                                         69
Appendix B: NCUA Management Comments

VIA E-Mail

TO:           William DeSarno, Inspector General
              Office of Inspector General (OIG)

FROM:         Executive Director David M. Marquis
              Office of Executive Director

SUBJ:         Comments on Material Loss Review of Norlarco Credit Union

DATE:         April 30, 2009

This memorandum responds to your request for review and comments on the OIG
report titled Material Loss Review of Norlarco Credit Union (MLR).

I agree with the MLR‟s assessment that the inability of Norlarco‟s management to
adequately identify, manage, and mitigate the risks within the residential
construction lending (RCL) program was a significant factor in this credit union‟s
failure. Specifically, Norlarco‟s management failed to:

      Conduct a due diligence review of third-parties;
      Provide appropriate oversight and control over the RCL program;
      Limit concentration risk in a given business line; and
      Develop and implement safe and sound Asset-Liability Management policies
       and practices.

As discussed in the MLR, NCUA has long provided guidance to credit unions
regarding the importance of due diligence when beginning a new program,
especially in cases involving third-parties. Since this case, NCUA issued additional
guidance to credit unions and examiner staff addressing such issues as evaluating
third-party relationships and in particular, loan participation programs.

Thank you for the opportunity to comment on the MLR of Norlarco Credit Union.




                                          70
